               

               
                     U.S. ENVIRONMENTAL PROTECTION AGENCY 
               
                     OFFICE OF INSPECTOR GENERAL 
               

               

               



                     Congressionally Requested
                     Information on the Status
                     and Length of Review for
                     Appalachian Surface Mining
                     Permit Applications
                     Report No. 12-P-0083               November 21, 2011




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Karen L. Hamilton
                                                   Luke Stolz
                                                   Mary Anne Strasser




Abbreviations

CWA           Clean Water Act
ECP           Enhanced Coordination Procedures
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
GAO           U.S. Government Accountability Office
IP            Individual permit
NWP           Nationwide permit
OIG           Office of Inspector General
OW            Office of Water
PCN           Preconstruction notification
SMCRA         Surface Mining Control and Reclamation Act


Cover photos:	 A mountainous landscape in Central Appalachia before (top) and after
               (bottom) the mountaintop mine/valley fill process. (EPA photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-P-0083
                                                                                                     November 21, 2011
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Congressionally Requested Information on the
This review responds to a
                                    Status and Length of Review for Appalachian
request from the Ranking            Surface Mining Permit Applications
Member of the Senate
Committee on Environment             What We Found
and Public Works. The senator
asked us to determine: (1) the      After reconciling discrepancies and vetting information, we identified
status of a list of 237             185 surface mining permit applications to review from the list of 237 that we
mountaintop mining permit           received from the senator. In response to the senator’s first request, we found that
applications and the length of      over half of all permit activities—whether permitted, withdrawn, or pending—
review time for each permit;        have taken a year or longer, with approximately 40 percent exceeding 2 years.
(2) reasons for the length of       Of our vetted universe of 185 projects, the Corps reviewed and issued 25 permits
review for each permit; and         within 144 days from the notification/application date. (According to EPA, this is
(3) the number of permits that      historically the average length of review for all individual permits, not simply
the U.S. Environmental              those for surface coal mining.) Of the 25, the Corps reviewed and issued
Protection Agency (EPA) has         20 permits within 90 days and another 3 by 120 days (the Corps’ goal). More
processed according to              than one-third of issued permits took a year or longer to process.
“enhanced review” and
“conductivity” procedures, and      In response to the senator’s second request, we found that several reasons
the average length of time to       account for the length of time associated with processing permit applications:
process a permit under these
procedures.                                Complex reviews based on new scientific evidence
                                           Applicant factors
Background                                 Involvement of EPA headquarters
                                           Corps procedural change
The U.S. Army Corps of
Engineers issues permits for        In response to the senator’s third request, we found that EPA identified 79 permit
surface coal mining under           applications for enhanced review and, to date, has issued 8 permits. (The United
Section 404 of the Clean Water      States District Court for the District of Columbia recently held that the EPA
Act. EPA assesses the               operated beyond the scope of its authority under the Clean Water Act when it
environmental and water             instituted the enhanced coordination process, and the court ordered it to be set
quality impacts of proposed         aside.) In April 2010, EPA issued interim guidance that included conductivity
Section 404 permits.                benchmarks for Appalachian projects. Conductivity is a measure of a stream’s
                                    ability to conduct an electrical current, and an EPA study observed an association
                                    between high conductivities in streams below surface coal mining operations and
For further information, contact    impairment of aquatic life. We found that, to date, EPA has commented on
our Office of Congressional and     24 projects in light of its April 1, 2010, interim guidance. EPA issued its final
Public Affairs at (202) 566-2391.   guidance on July 21, 2011, which replaced the interim guidance. EPA said that
The full report is at:              regions should begin consulting the final guidance immediately.
www.epa.gov/oig/reports/2012/
20111121-12-P-0083.pdf              This report makes no recommendations to EPA. We plan to report separately to
                                    EPA on one observation pertaining to recordkeeping.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




                                       November 21, 2011

MEMORANDUM

SUBJECT:	 Congressionally Requested Information on the Status and Length of
          Review for Appalachian Surface Mining Permit Applications
          Report No. 12-P-0083


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Nancy K. Stoner
               Acting Assistant Administrator for Water


This is a final report by the Office of Inspector General of the U.S. Environmental Protection
Agency. We conducted the assignment based on a request from the Ranking Member of the
Senate Committee on Environment and Public Works. The senator requested information
regarding a list of mountaintop mining permit applications. We do not make any
recommendations in this report.

Action Required

We provided you a copy of the draft report for comment on September 20, 2011. Your office
provided us with comments on October 13, 2011, and we met to discuss the report on
October 19, 2011. We made changes to the report as appropriate to address your comments, and
we will close this final report upon issuance.

If you or your staff have any questions regarding this report, please contact Melissa Heist at
(202) 566-0899 or Heist.Melissa@epa.gov, or Patrick Gilbride at (303) 312-6969 or
Gilbride.Patrick@epa.gov.
Congressionally Requested Information on the                                                                              12-P-0083
Status and Length of Review for
Appalachian Surface Mining Permit Applications


                                  Table of Contents

Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               9     


   2    Status and Length of Review for List of 237 Permit Applications.................                                          12


                Vetting the List of Permit Applications .........................................................                 12 

                Status and Length of Review ......................................................................                14 

                Reasons for Review Length ........................................................................                15 

                Documentation and Recordkeeping Issues .................................................                          17 


   3	   Status and Length of Review Under ECP and

        April 1, 2010, Interim Guidance.........................................................................                  18 


                Enhanced Review Process and Status of Projects .....................................                              18 

                April 1, 2010, Interim Guidance ...................................................................               21 


   Status of Recommendations and Potential Monetary Benefits..............................                                        25 




Appendices
   A    Detailed Permit Application Information..........................................................                         26 


   B    Distribution .........................................................................................................    59

                                             Chapter 1

                                              Introduction
Purpose
                  The U.S. Environmental Protection Agency (EPA), Office of Inspector General
                  (OIG), received a letter of inquiry from the Ranking Member of the Senate
                  Committee on Environment and Public Works on October 15, 2010, requesting:

                           1.	 The status of a list of 237 mountaintop mining permit applications1
                               and the length of time to review each permit
                           2.	 The reasons for the length of review for each permit
                           3.	 The number of permits from the list of 237 that EPA has processed
                               according to the “enhanced review” and “conductivity” procedures, as
                               well as the average length of time to process a permit under these
                               procedures

                  All of the permit applications on the senator’s list were for projects in the
                  Appalachian region, but not all the permit applications were for surface coal
                  mining. This report responds to the senator’s request.

Background

                  Coal Mining in the Appalachian Region

                  The United States produced 1.1 billion tons of coal in 2009 and used it to generate
                  almost half of the electricity consumed nationwide. U.S. coal production from
                  Appalachian Basin states (figure 1) amounts to 40 percent of all U.S. coal
                  production. According to the U.S. Geological Survey, the northern and central
                  parts of the Appalachian Basin produce 93 percent of coal mined in the region.

                  In a July 15, 2009, Federal Register notice on surface coal mining,2 the U.S.
                  Army Corps of Engineers stated that, since 1982,3 surface coal mining activities
                  in the Appalachian region have become more prevalent and have resulted in
                  greater environmental impacts. Additionally, the Corps stated that, since the late
                  1990s, “there have been increases in concerns regarding the individual and



1
  Since we found that not all of the applications on the senator’s list were mountaintop mining permit applications,

as some pertained to other forms of coal mining, throughout our report, we generally refer to all applications as 

surface coal mining permit applications.

2
  Federal Register, Vol. 74, No. 134, Wednesday, July 15, 2009, Notices, p. 34311, “Proposed Suspension and 

Modification of Nationwide Permit 21.”

3
  The U.S. Army Corps of Engineers first issued general permits for surface coal mining operations in 1982.


12-P-0083                                                                                                               1
                 cumulative adverse effects of those activities on the human environment and the
                 natural resources in this region, including streams and other aquatic resources.”4

                 Figure 1: Coal reserves in the Appalachian region of the United States




                 Source: U.S. Geological Survey.

                 Coal seams in the Appalachian region are difficult to access, which has led to an
                 increase in mountaintop coal mining, a type of surface mining. This type of
                 mining involves the removal of mountaintops (layers of rock and dirt above the
                 coal, called “overburden”) to expose and extract coal seams. Companies dispose
                 of overburden into adjacent valleys, creating “valley fills.” Figure 2 depicts the
                 mining and valley fill process. Since 1992, valley fill construction in the
                 Appalachian region has filled nearly 2,000 miles of Appalachian streams at a rate
                 of 120 miles per year.




4
 Federal Register, Vol. 74, No. 134, Wednesday, July 15, 2009, Notices, p. 34311, “Proposed Suspension and
Modification of Nationwide Permit 21.”

12-P-0083                                                                                                    2
                 Figure 2: Mountaintop mining and valley fill process

                                                                                   Layers of rock and dirt above
                                                                                   the coal (called overburden)
                                                                                   are removed.

                                                                                   The upper seams of coal are
                                                                                   removed with spoils placed in
                                                                                   an adjacent valley.

                                                                                   Draglines excavate lower
                                                                                   layers of coal with spoils
                                                                                   placed in spoil piles.

                                                                                   Regrading begins as coal
                                                                                   excavation continues.

                                                                                   Once coal removal is
                                                                                   complete, final regrading takes
                                                                                   place and the area is
                                                                                   revegetated.
                 Source: EPA Mid-Atlantic Mountaintop Mining web page.


                 Regulation of Surface Coal Mining

                 Congress passed the Federal Water Pollution Control Act (hereafter the Clean
                 Water Act, or CWA) in 1972 as the principal federal statute protecting waters of
                 the United States5 from pollution. CWA Section 404 regulates the placement of
                 dredged or fill material into waters of the United States, including wetlands.

                 Surface coal mining activities, including those that impact waters of the United
                 States, are complex processes subject to several key statutory provisions, and may
                 require the following permits: (1) a Corps-issued CWA Section 404 permit; (2) a
                 U.S. Department of the Interior-issued Surface Mining Control and Reclamation
                 Act (SMCRA)6 permit; (3) a state-issued CWA Section 4017 water quality
                 certification; and (4) a state-issued CWA Section 402 permit.

                 Although the Corps has responsibility for issuing CWA Section 404 permits,
                 EPA, in conjunction with the Corps, is responsible for developing and executing
                 guidelines for environmental evaluation of applications. EPA and the Corps
                 jointly developed CWA Section 404(b)(1), Guidelines for Specification of
                 Disposal Sites for Dredged or Fill Material, to outline environmental criteria used
                 to evaluate permit applications. In summary, the guidelines specify:



5
  Waters of the United States are defined in 40 Code of Federal Regulations 230.3, and include tributaries and 

wetlands. 

6
  Congress passed SMCRA in August 1977 to establish a program for the regulation of surface coal mining activities 

and the reclamation of abandoned mines. 

7
  States and tribes use CWA Section 401 to deny, certify, or condition federal permits and licenses by ensuring that 

activities will comply with state water quality standards and other appropriate provisions of state law.


12-P-0083                                                                                                                3
                   1.	 Discharge of dredged or fill material shall not be permitted if there is a
                       practicable alternative that would have less adverse impact on the
                       aquatic ecosystem.

                   2.	 Discharge of dredged or fill material shall not be permitted if it causes
                       or contributes to violation of any applicable state water quality
                       standards, violates any applicable toxic effluent standard, or
                       jeopardizes the existence of endangered or threatened species.

                   3.	 No discharge of dredged or fill material shall be permitted that will
                       cause or contribute to significant degradation of waters of the United
                       States.

                   4.	 With exceptions, no discharge of dredged or fill material shall be
                       permitted unless appropriate and practicable steps have been taken to
                       minimize potential adverse impacts on the aquatic ecosystem.

                   5.	 Compensatory mitigation is required for unavoidable impacts to
                       aquatic resources.

            EPA reviews and comments on permit notifications under CWA Section
            404(b)(1) to ensure protection of water quality and the environment. Table 1
            depicts the specific roles and responsibilities of the Corps and EPA in the
            permitting process.

            Table 1: U.S. Army Corps of Engineers and EPA roles and responsibilities under
            CWA Section 404
                                                Corps
                Receives permit applications
                Conducts or verifies jurisdictional determination
                Develops policy and guidance
                Enforces CWA Section 404 provisions
                Administers the day-to-day program, including requesting and evaluating
                 information on permit applications and making final permit decisions
                Considers comments when determining whether to issue the permit, to issue the
                 permit with conditions, or to deny the permit
                                                   EPA
               Develops and interprets policy, guidance, and environmental criteria used to
                evaluate permit applications
              Reviews and comments on individual permit notifications, the development of
                general/nationwide permits, and general/nationwide permit preconstruction
                notifications where applicable
              Determines scope of geographic jurisdiction and applicability of exemptions
              Approves state and tribal permitting programs, and oversees assumed programs
              Enforces CWA Section 404 provisions
            Source: Information collected by the OIG based on a variety of sources.




12-P-0083                                                                                           4
                 The Corps may issue a permit only if it determines that the project represents the
                 least damaging practicable alternative. According to the 404(b)(1) guidelines, the
                 Corps must also ensure that the project proponent has taken “all appropriate and
                 practicable steps to avoid and minimize adverse impacts to waters of the United
                 States.” EPA may choose to provide comments to the Corps within the prescribed
                 comment period or request a time extension. Under CWA Section 404(c), EPA
                 has the authority to veto or restrict the use of a disposal site if it determines that a
                 discharge of dredged or fill material is having or will have an unacceptable
                 adverse effect on, among other things, municipal water supplies, wildlife, or
                 recreational areas.8 EPA Regional Administrators can also elevate specific permit
                 decisions to EPA headquarters with a recommendation to request higher level
                 review within the Department of Army under CWA Section 404(q).

                 EPA’s Office of Water (OW) in headquarters oversees national program
                 implementation for EPA’s CWA Section 404 activities, and staff in EPA Regions
                 3, 4, and 5 work with local Corps districts and applicants to review surface coal
                 mining permit notifications and provide comments. In fiscal year (FY) 2010, the
                 Agency had 30 full-time equivalents (staff) involved in reviewing surface coal
                 mining projects, including CWA Section 404 permit reviews.9 The Agency
                 decreased staff to 23 full-time equivalents in FY 2011. EPA’s total resources for
                 this work were a little over $600,000 in FY 2009; resources increased to
                 $4.2 million in FY 2010 and decreased to $2 million in FY 2011.

                 Surface Mining Applications and Permitting Process

                 The Corps can issue two types of permits under CWA Section 404: individual
                 permits (IPs) and general permits (including nationwide permits (NWPs)).

                         Individual Permits

                         IPs are issued for projects with potentially significant impacts. In
                         FY 2009, the Corps issued approximately 4,200 IPs. Once the Corps
                         receives a completed application from the applicant, the Corps issues a
                         public notification for comment. After issuing public notice, EPA and
                         other stakeholders have 15–30 days to comment on the notification. The
                         Corps’ goal is to decide on all IP applications no later than 60 days after
                         receipt of a complete application, and the Corps may extend the 60-day
                         period.

                         The Corps evaluates applications under a public interest review, as well as
                         the environmental regulations (404(b)(1) guidelines) promulgated by EPA

8
  EPA has issued 13 final veto actions since 1972. One final action was for the Spruce No. 1 Surface Mine. 

According to EPA’s website (http://water.epa.gov/lawsregs/guidance/cwa/dredgdis/bigbranch.cfm), the Agency has

also initiated a CWA Section 404(c) review of another proposed surface coal mine in Kentucky. 

9
  We learned that this FY 2010 staffing level is an increase over the FY 2009 level; however, we only received 

FY 2009 data on full-time equivalents for headquarters, not regional, staff.


12-P-0083                                                                                                          5
            in conjunction with the Corps. A public interest review considers factors
            such as conservation, economics, aesthetics, wetlands, navigation, fish and
            wildlife values, water supply, and water quality.

            General Permits

            The Corps issues general permits (including NWPs, which authorize
            activities on a nationwide basis unless specifically limited), for projects
            with discharges that will have minimal adverse effects. In FY 2009, the
            Corps issued approximately 45,000 general permits for all types of
            activities, including NWP verifications. Nationwide permittees may, and
            in some cases must, request from the Corps confirmation that an activity
            complies with the terms and conditions of an NWP.

            The general permit process allows certain activities with minimal
            individual or cumulative impact to proceed with little delay or paperwork.
            While an IP has a 15–30 day comment period, the comment period for the
            NWP discussed in this report is 10 days. To obtain an NWP verification, a
            project must satisfy the specific terms and conditions of the applicable
            NWP, as well as the general NWP conditions, as appropriate, including:

                  Maintaining open waters and causing no more than minimal
                   adverse effect on navigation, to the maximum extent practicable
                  Avoiding impact to spawning and breeding locations for shellfish
                   and other aquatic life
                  Protecting endangered species, wild and scenic rivers, and historic
                   properties
                  Maintaining appropriate soil erosion and sediment controls
                  Protecting critical resource waters, such as National Estuarine
                   Research Reserves
                  Ensuring that projects comply with water quality certification
                   (CWA Section 401), unless waived

            NWP 21—Surface Coal Mining Operations is a general permit that
            authorizes discharges of dredged or fill materials into waters of the United
            States associated with surface coal mining activities. From 1997 to 2010,
            22 Corps districts issued 1,473 NWP 21 verifications, with approximately
            1,204 (82 percent) of these for the Appalachian region.

            On June 18, 2010, the Corps suspended NWP 21 in the Appalachian
            region of Kentucky, Ohio, Pennsylvania, Tennessee, Virginia, and West
            Virginia. This decision was based on the Corps’ concerns that continued
            use of this permit in Appalachia may result in more than minimal
            individual and cumulative adverse effects to aquatic resources. The Corps
            took this action to ensure appropriate evaluation of these complex mining
            activities. Currently, mining companies cannot apply for permits under

12-P-0083                                                                                  6
                            NWP 21 in Appalachia. Instead, companies must apply for IPs, which
                            entail additional steps in the permitting process, and afford more time and
                            opportunity for public comment and examination of possible adverse
                            environmental effects on aquatic resources.

                            The Corps reviews and considers all CWA Section 404 permit
                            applications in accordance with its procedures10 and completes tasks
                            shown in table 2 (italicized tasks common to all applications).

                    Table 2: Corps CWA Section 404 application review procedures
                            Individual permit applications                 Nationwide permit applications
                                Assign an application a number upon receipt. This number may exist prior
                                 to the application submission, as the Corps may have issued it during a
                                 jurisdictional determination action or upon first contact by the applicant.
                        Determine application completeness          Determine application completeness
                         within 15 days of receipt. If the               within 30 days where applicants
                         application is incomplete, the Corps            submit a preconstruction notification
                         requests additional information for             (PCN). If the application is
                         further processing.                             incomplete, the Corps requests
                                                                         additional information for further
                                                                         processing.
                        If complete, the Corps will publish a          If complete and if required, the Corps
                         public notice to appropriate federal            will provide a copy of the PCN to
                         agencies and the public, and initiate           appropriate federal agencies. NWPs
                         the comment period. IPs have a                  have a comment period of 10 days.
                         minimum of 15 and maximum of
                         30 days for comment.
                              Consider all comments received in response to the public notice or PCN.
                        After the applicant takes all necessary  After the applicant takes all
                         actions, the Corps will determine               necessary actions, the Corps will
                         whether to issue the permit.                    determine   whether to issue the
                                                                         verification.
                    Source: Information collected by the OIG based on a variety of sources.

                            The Corps may assign application numbers when it receives
                            correspondence of any type for a proposed project, such as when a
                            company requests a jurisdictional determination. Thus, the year listed as
                            the first part of the application number does not necessarily indicate the
                            age of the completed application, but instead reflects the first interaction
                            the company had with the Corps on the project (see, for example,
                            application numbers listed in the second column of appendix A). We noted
                            that some permit applications had multiple public notices or PCNs. This
                            could result from applicants withdrawing and resubmitting a permit
                            application or substantially revising their project. Thus, the notification
                            dates listed in appendix A may not be the first notification date for the
                            permit application.

10
     Title 33 Code of Federal Regulations Part 325, “Processing of Department of the Army Permits.”

12-P-0083                                                                                                         7
                 Enhanced Coordination Procedures

                 From 2005 to 2009, CWA Section 404 permits were the subject of litigation in
                 West Virginia. While companies and agencies waited for the outcome of the
                 case,11 injunctions issued by the court during litigation limited the processing of
                 permit applications and created a backlog. On February 13, 2009, the United
                 States Court of Appeals for the 4th Circuit reversed a district court opinion that
                 rescinded four permits in West Virginia. To efficiently process pending
                 applications, some of which were several years old, EPA and the Corps issued
                 Enhanced Coordination Procedures (ECP) on June 11, 2009, to address the
                 backlog of permit decisions. EPA and the Corps developed the ECP to process
                 outstanding applications and to:

                              Provide for timely resolution of issues for permits for which the
                               agencies have substantial environmental concerns
                              Ensure effective coordination among the agencies and consistent
                               compliance with CWA requirements, regulations, and relevant policy
                              Expedite review and final decisions regarding pending permits for
                               surface coal mining operations in the Appalachian region
                              Provide additional transparency to the public

                 The Corps and EPA applied the ECP to surface coal mining permit applications in
                 the Appalachian region for which the Corps had issued a public notice or
                 coordinated with EPA through the NWP coordination process by March 31, 2009.
                 There were initially 108 CWA Section 404 permit applications included on the
                 June 11, 2009, list subject to the ECP.

                 EPA narrowed the list to 79 CWA Section 404 permit applications in a
                 memorandum on September 30, 2009.12 This was the final ECP list. Permit
                 applications submitted to the Corps after March 31, 2009, are not subject to the
                 ECP, and EPA and the Corps process them according to the Corps’ standard
                 permitting process. The senator’s list of 237 permit applications included 77 of
                 the 79 permit applications on the final ECP list.

                 EPA identified these 79 permit applications for the ECP due to environmental
                 concerns in four key areas:

                          1.	 The potential for reduction in impacts to aquatic resources through
                              additional avoidance and minimization


11
  Ohio Valley Environmental Coalition v. Aracoma Coal Co., 556 F.3d 177 (4th Cir. 2009).
12
  From the initial list of 108, EPA and the Corps removed 31 projects and added 2 projects, resulting in a total of
79 projects remaining on the ECP list. Of the 31 projects removed, 13 were withdrawn, 8 already had permits, 3 had
ongoing enforcement actions that precluded a permit decision, 1 permit application was not complete, 1 project was
for work that did not require a permit, and 5 were for underground mining projects determined not appropriate for
the ECP.

12-P-0083                                                                                                             8
                         2.	 The potential for excursions from applicable state or federal water
                             quality standards
                         3.	 The potential for significant cumulative effects from historic, current,
                             and proposed surface mines
                         4.	 The adequacy of compensatory mitigation to offset lost aquatic
                             functions

                Chapter 3 provides the status of ECP permit applications as of our review cut-off
                date of May 27, 2011. Subsequent to our review, on October 6, 2011, the United
                States District Court for the District of Columbia13 ruled that, with the adoption of
                the ECP, EPA exceeded its statutory authority afforded by the CWA. The court
                also ruled that the ECP are legislative rules not exempt from the Administrative
                Procedure Act’s notice and comment rulemaking requirements. The court ordered
                the ECP be set aside as an unlawful agency action.

Scope and Methodology
                We conducted our work from October 2010 to September 2011 in accordance
                with generally accepted government auditing standards. Those standards require
                that we plan and perform our review to obtain sufficient, appropriate evidence to
                provide a reasonable basis for our findings and conclusions based on our
                objectives. We believe that the evidence obtained provides a reasonable basis for
                our findings and conclusions based on our objectives.

                To address the senator’s first question, we reviewed relevant laws, regulations,
                policies, procedures, and guidance governing the CWA Section 404 permit
                application process. We analyzed information from OW, the Corps, and the U.S.
                Government Accountability Office (GAO). We conducted interviews with EPA
                (OW and Regions 3, 4, and 5), GAO, and the Corps to understand and document
                CWA Section 404 roles and responsibilities, and to determine time frames for the
                process. We conducted site visits to Regions 3, 4, and 5 to review documents and
                determine the status of the 237 permit applications on the senator’s list.

                To address the senator’s second question, we received information from the Corps
                on reasons for delay. We conducted interviews with EPA staff in Regions 3, 4, and
                5, and reviewed documentation, to determine and verify reasons for various lengths
                of review for the 237 permit applications. We also interviewed personnel from five
                mining companies to ascertain any impacts from permit application time frames.

                To address the senator’s third question, we reviewed the June 11, 2009,
                memorandum of understanding among the U.S. Department of the Army, U.S.
                Department of the Interior, and EPA implementing the Interagency Action Plan
                on Appalachian Surface Coal Mining. We reviewed the ECP memorandum and
                all related documents. We also reviewed EPA’s Detailed Guidance: Improving
13
  National Mining Ass’n v. Environmental Protection Agency, 1:10-cv-01220-RBW (D.C. District Court, Oct. 6,
2011) (Doc. #96, Memorandum Opinion and Order).

12-P-0083                                                                                                     9
                EPA Review of Appalachian Surface Coal Mining Operations under the Clean
                Water Act, National Environmental Policy Act, and the Environmental Justice
                Executive Order, dated April 1, 2010 (hereafter the April 1, 2010, interim
                guidance). We reviewed documents provided by Regions 3, 4, and 5, and
                interviewed EPA staff in OW and Regions 3, 4, and 5. We interviewed personnel
                from five mining companies to understand their viewpoint on the ECP process.
                We determined the status of permit applications for which EPA considered its
                April 1, 2010, interim guidance by tallying comment letters written by EPA
                subsequent to April 1, 2010, and by looking at issued or withdrawn dates and
                pending permits.

                Limitations

                We were unable to retrieve complete records for the timeline and events of each
                application because the Corps administers the permit application process and
                maintains official records for each application, and we do not have jurisdiction
                over the Corps. We received some information from the Corps that augmented
                what we obtained from EPA. However, we did not receive source documents
                from the Corps, and we did not independently verify information we received
                from the Corps. Instead, we relied on testimonial evidence for some components
                of our work (i.e., reasons for the length of review of IP applications). However,
                we believe that our additional work steps provided sufficient and appropriate
                evidence to support our findings and conclusions.

                We selected May 27, 2011, as the cut-off date for our analysis because that is the
                date the Corps provided project status information to the senator’s staff, who then
                provided it to our team. Appendix A includes project-specific information we
                obtained from EPA and the Corps.

                Prior Audit Coverage

                GAO issued a briefing report on October 19, 2010, in response to a congressional
                request on CWA Section 404 permit reviews under the ECP in Appalachia.14
                GAO focused its briefing on ECP coordination efforts in West Virginia and, as
                such, included EPA Region 3 and the Corps’ Huntington District in its scope.
                GAO’s briefing provided the status of all 79 ECP projects as of August 11, 2010.
                GAO made several observations, including:

                           Agencies did not establish time limits for coordination that occurs
                            prior to the start of the ECP 60-day review process.
                           EPA did not send decision makers to coordination meetings.
                           EPA officials believe CWA Section 404 reviews require a detailed,
                            case-by-case look.

14
  GAO’s briefing report, EPA and the Corps’ CWA Section 404 Permit Reviews Under Enhanced Coordination
Procedures, GAO-11-101R, was requested by the Chairman of the House Committee on Natural Resources. The
briefing was given on September 16, 2010, and the report was issued on October 19, 2010.

12-P-0083                                                                                                 10
                   	 While some applicants resisted opportunities to coordinate with the
                      agencies about reducing project impacts and complying with the law,
                      other applicants effectively collaborated with EPA and the Corps to
                      achieve positive permit outcomes.

            GAO could not evaluate the extent to which EPA Region 3 and the Corps’
            Huntington District had coordinated throughout the process because of limited
            and varied documentation. We made similar observations in our review with
            regard to documentation.




12-P-0083                                                                                   11
                                             Chapter 2

                            Status and Length of Review for 

                            List of 237 Permit Applications 

                    After reconciling discrepancies and vetting information, we identified 185 surface
                    mining permit applications to review from the list of 237 that we received from
                    the senator. The other 52 were not permit applications for surface coal mining,
                    were already permitted or withdrawn, or were a duplicate application. Of these
                    185, the Corps reviewed and issued 25 permits within 144 days from the
                    application/notification date, which is historically the average length of review for
                    all IPs (all activities, not simply surface coal mining) according to EPA. Of those
                    25 permits, the Corps issued 20 within 90 days, and another 3 by 120 days, which
                    is the Corps’ goal. More than one-third of issued permits took a year or longer to
                    process, and 110 permit activities (59 percent)—whether issued, withdrawn, or
                    pending—have taken a year or longer to process. Over 40 percent of the 185
                    applications exceeded 2 years. We found that several reasons account for length
                    of time in processing permit applications:

                            Complex reviews based on new scientific evidence
                            Applicant factors
                            Involvement of EPA headquarters
                            Corps of Engineers procedural change

Vetting the List of Permit Applications
                    Litigation in 2009 between an environmental organization and a coal company
                    resulted in a backlog of CWA Section 404 permit applications. The 4th Circuit
                    Court of Appeals reached a decision15 in early 2009 validating the Corps’ permit
                    actions. Following the court decision, the Corps developed a list of pending
                    permit applications and continually reworked its list, in consultation with EPA, to
                    arrive at the final list of applications for review under the ECP. EPA announced
                    the final list on September 30, 2009.

                    We analyzed the Corps’ list to account for all 237 permit applications listed in the
                    senator’s request. Figure 3 breaks down the 237 permit applications on the list
                    that we received from the senator, which was based on Corps data dated May 12,
                    2009.




15
     Ohio Valley Environmental Coalition v. Aracoma Coal Co., 556 F.3d 177 (4th Cir. 2009).

12-P-0083                                                                                                   12
            Figure 3: Breakdown of the senator’s list of 237 permit applications




            Source: OIG analysis of Corps and EPA lists, and interviews with Corps and EPA staff.

            Our analysis of the Corps’ list of 237 applications revealed inaccuracies based on
            data from our file reviews at EPA Regions 3, 4 and 5, and information we
            received from the Corps. For example, we noted that many permit applications on
            the list we received from the senator were not surface mining projects but
            underground mines, jurisdictional determinations, or other types of projects. The
            Corps regional coal expert explained that many of the lists developed after the
            4th Circuit decision were put together quickly and that he would have preferred
            more time to verify the information. Examples of inaccuracies on the list of 237
            include 28 applications that had been permitted or withdrawn prior to May 12,
            2009, and one duplicate; yet, the list included them as pending applications.
            Table 3 shows what we were able to ascertain about the list of 237 permit
            applications.




12-P-0083                                                                                           13
                 Table 3: Vetted information for applications on the senator’s list of 237
                  Description                                                                          Number
                  List total                                                                              237
                     Less applications that should not be included and inaccuracies:
                            Duplicate                                                                     <1>
                            Applications that were permitted or withdrawn before May 12, 2009            <28>
                            Applications that are not surface mines                                      <23>
                  Applications remaining from the list of 237                                             185
                     Permits issued                                                                        56
                     Withdrawn applications                                                                63
                     Pending applications                                                                  66
                 Source: OIG analysis of Corps and EPA data based on a cut-off date of May 27, 2011.

                 Table 3 shows that 185 surface mining permit applications remained16 after
                 analyzing data on the 237 applications listed in the request from the senator.17 As
                 of May 27, 2011, 66 surface mining applications out of 185 were pending.

Status and Length of Review
                 Corps regulations govern the permit application process and allow 60–90 days for
                 IP application review and processing. However, the Corps stated that it has an
                 internal goal to process permit applications within 120 days. In contrast, EPA
                 informed us that, on average, review and processing of an IP application for all
                 types of activities (not specific to surface coal mining) takes 144 days.18 Table 4
                 shows the status and length of review for the 185 surface mining applications.




16
   One permit application included in the 185 surface mining permit applications was for an NWP 50—Underground 

Coal Mining Activities. We included this permit application as it was part of the list of 79 permit applications

subject to the ECP. 

17
   Applications for IPs and NWP 49 permits on the list could be for mining activities other than surface mining. 

18
   Corps regulations allow additional time for extensions and exceptions.


12-P-0083                                                                                                            14
            Table 4: Status and length of review of vetted 185 permit applications from the
            senator’s list of 237 as of May 27, 2011
             Length of time                Issued     Withdrawn      Pending       Total applications
             0–90 days                       20            8            13                  41
             91–120 days                      3            0             1                  4
             121–144 days                     2            0             0                  2
             145–365 days                    12            5            11                  28
             366–730 days                    13           16             6                  35
             >731 days                        6           34            35                  75
             Total applications              56           63            66                 185
            Source: OIG analysis of Corps and EPA data. 

            Note: For the length of review, we counted the days from the application/notification date 

            to the action (issued or withdrawn) or, for pending permits, to our cut-off date of May 27, 

            2011.


            Table 4 shows that, out of a universe of 185 projects, the Corps issued 56 permits
            (or 30 percent). Of these 56 issued permits, the Corps reviewed and processed 23
            within its stated goal of 120 days. Table 4 also shows that 31 of the 56 took longer
            than the IP average review time of 144 days. Of the 66 pending applications,
            41 applications (62 percent) have been in process for over 1 year. In fact, table 4
            shows that 110 permit activities (59 percent)—whether issued, withdrawn, or
            pending—have taken a year or longer to process, with 75 out of 185 activities (or
            41 percent) exceeding 2 years.

            Chapter 3 describes the status of a subset of these 185 permit applications—those
            79 that EPA and the Corps identified for enhanced review. Appendix A provides
            additional detail on all projects.

Reasons for Review Length
            The senator’s office provided us the project status information as of May 27,
            2011, that it received from the Corps. The Corps provided the information to the
            senator’s office in spreadsheet/summary format. The spreadsheet included the
            reasons for delays that Corps project managers denote in an internal Corps
            database. The Corps provided the following general reasons for delays:

                        Applicant (e.g., the Corps noted instances in which it waited for
                         responses from applicant to requests for information)
                        Other approvals (CWA Section 401, CWA Section 402, SMCRA)
                        Resolution of comments
                        Issues related to final mitigation plan
                        Endangered Species Act consultation
                        Issues related to historic property



12-P-0083                                                                                                   15
            We observed these and other reasons for the length of review based on our
            document reviews and site visits with Regions 3, 4, and 5. The following
            summarizes reasons that we identified.

            More Complex Reviews

            EPA said that the most significant contributor to the time required to review
            CWA Section 404 projects is the complexity of these projects, which necessitates
            careful evaluation by the agencies to ensure that permits comply with the CWA
            and reflect best-available science. EPA staff also said that the Agency and the
            Corps are conducting more comprehensive reviews of Appalachian surface
            mining applications due to new scientific evidence and enhanced interagency
            coordination. According to EPA, recent scientific studies have pointed to a
            substantial body of evidence of significant environmental consequences
            associated with Appalachian surface coal mining activities, including harmful
            biological effects of increased conductivity levels exhibited downstream of
            surface mines. According to EPA, many of its comment letters over the past
            several years show that conductivity concerns have existed for some time, but that
            the emerging science and the change in Administration provided renewed focus
            on these issues. As we noted in chapter 1, EPA increased staff and budget in
            FY 2010 to conduct these complex reviews.

            Applicant Factors

            Similar to the first reason given by the Corps, regional staff told us that, at times,
            an applicant does not provide all material necessary for the Corps to complete the
            process or for EPA to conduct its review. In these cases, regional staff said the
            Corps requests additional information from the applicant and waits for a response.
            Absent a timely response from the applicant, the Corps will administratively
            withdraw an application.

            Some mining companies submit permit applications for multiple projects. When
            the Corps requests additional information, the applicant may prioritize its pending
            applications and place some on hold.

            Regional staff also stated that delays may occur when one mining company
            purchases another company. Ownership changes result in changes to mine plans,
            which often delay processing.

            Involvement of EPA Headquarters

            As part of reviewing applications and submitting comment letters, EPA regional
            staff may work with the applicant directly or, more often, through the Corps, to
            resolve concerns as part of reviewing notifications and submitting comment
            letters that identify outstanding issues and minimize environmental impact. We
            heard from both the Corps and EPA that it takes time to resolve permit issues, and

12-P-0083                                                                                            16
                  that visits to the field are vital to aid understanding.19 We noted examples in
                  which EPA headquarters staff reworked agreements made in the field between
                  EPA regional personnel, the Corps, and mining companies. We also noted an
                  instance in which EPA headquarters revised comment letters written by regional
                  staff. This instance required EPA regional personnel to meet again with the Corps
                  and the applicant to resolve issues that stakeholders thought they addressed
                  through earlier meetings and correspondence.

                  GAO reported stakeholders’ frustration that EPA decision makers did not attend
                  meetings to clearly communicate what might be needed to satisfy EPA’s
                  concerns. Interviewees made similar comments to us during our review. One EPA
                  official said the Section 404 program has a unique relationship with headquarters,
                  as some decisions (e.g., elevations and vetoes) are made in Washington, DC,
                  which is different from other Clean Water actions in which the Regional
                  Administrator has primary responsibility. An EPA staff person said that
                  headquarters is typically involved on issues of such high significance and priority
                  for the Agency.

                  Procedural Change

                  The Corps suspended NWP 21 on June 18, 2010, requiring applications that the
                  Corps would have approved under NWP 21 to undergo the more rigorous IP
                  review process. An IP requires additional time for public comment and
                  examination for possible adverse environmental effects. IPs often entail complex
                  reviews and detailed comment letters from EPA, other federal agencies, and other
                  stakeholders.20

Documentation and Recordkeeping Issues
                  We might have been able to clarify the numbers of permit applications in our
                  review more quickly if EPA had better documentation and recordkeeping. We
                  have drafted a separate report to EPA on recommendations to improve its
                  recordkeeping. We noted that EPA and the Corps share limited information on
                  permit applications. EPA did not, at the time of our review, have an information
                  system to track data for permit applications. Rather, regional personnel
                  maintained individual records to document their evaluations, and documentation
                  varied by individual reviewer. EPA staff said the Agency is not the official
                  recordkeeper for the surface mining application process (the Corps is the agency
                  of record); however, we found that EPA did not consistently document actions it
                  took on permit notifications.

19
   EPA regional staff said that the Agency’s current budget/travel cuts will limit planned travel for site visits and
field meetings.
20
   At the time of the suspension of NWP 21, there were five NWP 21 applications pending in the Appalachian region
that were affected. We are unsure how many of these 5 appear on the list of 237. However, the suspension of
NWP 21 could affect the 66 pending applications on the list, as well as all future permit applications, because the
applicant will be required to apply for an IP, which results in a longer processing time.

12-P-0083                                                                                                               17
                                             Chapter 3

           Status and Length of Review Under ECP and 

                  April 1, 2010, Interim Guidance 

                  EPA and the Corps developed the ECP process to expedite review of permit
                  applications backlogged due to litigation. (As noted above, the ECP process was
                  set aside by the court.) The 79 ECP projects identified by EPA on September 30,
                  2009, will not increase. In contrast, EPA applied its April 1, 2010, interim
                  guidance (which referenced studies on the impact of conductivity) to all permit
                  applications submitted after that date, or submitted prior to that date but on which
                  EPA has yet to comment. As of our cut-off date of May 27, 2011, EPA has
                  commented on 24 projects in light of the April 1, 2010, interim guidance, and the
                  universe of notifications reviewed in light of the guidance will grow to include
                  permit applications for new mining operations and applications under review from
                  the now set aside ECP process. The April 1, 2010, interim guidance did not set a
                  timetable for conductivity analysis. Conductivity is one of many environmental
                  and water quality factors EPA considers when it reviews permit notifications per
                  CWA Section 404.

Enhanced Review Process and Status of Projects21
                  According to EPA and the Corps, the ECP gave EPA another chance to comment
                  on projects that it did not comment on during the previous notification period.
                  EPA also explained that the ECP provided EPA and the Corps opportunity to
                  more closely evaluate pending surface coal mining projects on which there were
                  remaining water quality and/or regulatory compliance issues. The 79 ECP
                  applications followed the same process as other permit applications, with the
                  following additional coordination as outlined in the now set aside EPA-Corps
                  enhanced procedures, dated June 11, 2009:

                       1.	 The Corps, EPA, and applicant/stakeholders work to resolve permit issues
                           before the ECP 60-day review period begins.

                       2.	 The Corps must provide EPA written notice of the start of the 60-day
                           review period.




21
   As noted, we reviewed the status of ECP projects as of our cut-off date of May 27, 2011. In light of the district
court’s decision setting aside the ECP (National Mining Ass’n (Oct. 6, 2011 Memorandum Opinion and Order)),
EPA indicated that pending ECP projects will be evaluated by the Corps and EPA under existing regulatory and
statutory procedures. EPA has 60 days to appeal the district court’s decisions, which it has not yet done. EPA
indicated that it is currently working with the Corps and the U.S. Department of Justice to make that decision.

12-P-0083                                                                                                              18
                      3.	 The Corps can extend the 60-day clock for 15 days or beyond if agreement
                          on outstanding issues has not been reached. EPA can request a 15-day
                          extension if permit concerns are not resolved within the 60-day period.

                      4.	 The Corps can issue a permit with outstanding EPA concerns, but must
                          inform the appropriate EPA region of its decision to issue a permit, and of
                          plans for resolution of EPA’s concerns, within 10 days. If this happens,
                          EPA must respond to the Corps within 10 days on whether EPA will
                          pursue issues via veto authority under CWA Section 404(c) or whether
                          EPA will not take further action.

                  Table 5 shows the status, as of May 27, 2011, of the 77 ECP permit applications
                  on the list of 237. The list of 237 did not include 2 ECP projects, thus resulting in
                  77 ECP projects instead of the 79 projects identified by EPA in the final ECP
                  memorandum on September 30, 2009.

                  Table 5: Status of ECP permit applications on the senator’s list of 237
                   Status of permit applications                                         Number
                   Total                                                                     77
                        Issued                                                               8
                        Withdrawn                                                            40
                        Withdrawn and resubmitted outside ECP                                6
                        Pending                                                              23
                  Source: OIG analysis of Corps and EPA data based on a cut-off date of May 27, 2011.

                  Table 5 shows that, of the 77 ECP permit applications on the list of 237, 54 (or
                  70 percent) have been issued, withdrawn, or withdrawn and resubmitted outside
                  the ECP.22 For the eight permits issued, once the Corps started the 60-day clock, it
                  took on average approximately 112 days for permit issuance. Our review also
                  identified two ECP projects for which the Corps started the 60-day clock but then
                  applicants withdrew their applications. From when EPA and the Corps issued the
                  final ECP list on September 30, 2009, to our cut-off date of May 27, 2011,
                  604 days had elapsed. Appendix A provides additional detail on individual
                  projects and denotes ECP projects in gray highlighting.

                  For projects that remain from the now set aside ECP process, those will be
                  evaluated by the Corps and EPA under existing regulatory and statutory
                  procedures. Regarding those projects, Corps staff explained that the Corps
                  awaited either additional information from the applicant or sufficient status
                  information on a state CWA Section 401 certification or state SMCRA permit.
                  The Corps explained that before initiating the ECP 60-day coordination period, at
                  a minimum the Corps district should have sufficient information regarding:
22
  Of the six ECP projects that were withdrawn and resubmitted outside of ECP, one was issued and five were
pending when the district court set aside the ECP. The 2 projects included on the ECP list of 79 that were not
included on the senator’s list were both outstanding as of our cut-off date of May 27, 2011.

12-P-0083                                                                                                        19
                                Avoidance and minimization
                                Mitigation
                                Cumulative impacts
                                Status of SMCRA permit
                                Status of CWA 401 certification
                                Status of CWA 402 permit
                                Endangered Species Act consultation complete (if necessary)
                                Coordination complete under Section 106 of the National Historic
                                 Preservation Act (if necessary)

                    To facilitate timely resolution, the ECP encouraged each Corps district and EPA
                    region to begin discussions immediately, before triggering the 60-day clock, on
                    those permit applications requiring additional review and coordination. EPA staff
                    explained that EPA worked to coordinate with the Corps and applicants prior to
                    the start of the ECP 60-day clock. In addition, EPA staff said regions hold regular
                    meetings to discuss permit applications.

                    As table 5 shows, the majority of permit applications on the ECP list have been
                    withdrawn. Should applicants decide to resubmit these withdrawn applications,
                    the Corps and EPA would review resubmitted proposals outside of the ECP
                    process. However, both Corps and EPA staff said that the level of review would
                    be the same outside of the ECP as within the ECP. The ECP was intended to
                    provide an expedited review and established additional time frames as described
                    above. Corps staff said they try to explain to applicants that there is no benefit to
                    withdrawing and resubmitting because EPA has assured the Corps that it will look
                    at all other projects with the same criteria as an ECP project. According to EPA,
                    this includes reviewing for compliance with existing regulations (the 404(b)(1)
                    guidelines).

                    ECP in Practice

                    During our review, we noted varying levels of success with the ECP. One area of
                    success was in EPA Region 5, which had 6 of the 79 projects on the ECP list and
                    worked with the Corps to resolve issues related to these within 10 months of
                    issuance of the final ECP list (in some cases, these permits were withdrawn).
                    Also, to provide additional transparency, EPA created a website for the 79
                    projects on the ECP list.23 The website includes project status and links to other
                    information, such as copies of comment letters (where applicable).

                    The ECP did not expedite the review process on every project. For example, one
                    project’s ECP 60-day clock started in mid-September 2010 and, as of May 27,
                    2011, the project had yet to receive a permit. Both EPA and the Corps described
                    the back and forth between the agencies and applicant throughout the process.

23
     See http://water.epa.gov/lawsregs/guidance/wetlands/mining-projects.cfm.

12-P-0083                                                                                                   20
                 Although a decision on the application seemed to be forthcoming, EPA said that
                 headquarters and Region 4 recently worked with the permit applicant to evaluate a
                 new plan for the project that, according to EPA, would further reduce
                 environmental impacts and allow mining to proceed.

                 Industry Perspective

                 We spoke with five mining companies to get an industry perspective on the ECP.
                 All of the companies with whom we spoke said that the increased coordination
                 between agencies slowed the permitting process and increased review time. Many
                 believe that EPA has overstepped its role in the CWA Section 404 review process,
                 and company representatives seemed frustrated with what they perceived as
                 EPA’s increased role. Some said that EPA was responsive to requests and
                 questions, and worked with the companies to resolve issues.

April 1, 2010, Interim Guidance
                 Conductivity Description and Impetus for April 1, 2010, Interim
                 Guidance

                 Conductivity is a measure (in units known as microSiemens per centimeter
                 (μS/cm)) of a stream’s ability to conduct an electrical current. It measures the salt
                 content of water because saltier water more readily conducts electricity. A study
                 by EPA scientists observed an association between high conductivities in streams
                 below surface coal mining operations and impairment of aquatic life.24

                 On April 1, 2010, EPA issued Detailed Guidance: Improving EPA Review of
                 Appalachian Surface Coal Mining Operations under the Clean Water Act,
                 National Environmental Policy Act, and the Environmental Justice Executive
                 Order. EPA stated that it issued this interim guidance to clarify its expectations of
                 the Agency’s review of Appalachian surface coal mining operations with respect
                 to existing provisions of the CWA, National Environmental Policy Act, and
                 Environmental Justice Executive Order (Executive Order 12898). As such, this
                 guidance applied to EPA’s review of all CWA Section 402 and 404 applications
                 for Appalachian surface coal mining operations, including those Section 404
                 permit applications subject to the ECP. EPA issued its final guidance, which
                 replaced the interim guidance, on July 21, 2011. EPA said that regions should
                 begin consulting the final guidance immediately.

                 EPA cited three key considerations for the issuance of the interim guidance:




24
   Pond, G.J., M.E. Passmore, F.A. Borsuk, L. Reynolds, and C.J. Rose. 2008. Downstream effects of mountaintop
coal mining: comparing biological conditions using family- and genus-level macroinvertebrate bioassessment tools.
J. N. Am. Benthol. Soc. 2008, 27(3):717–737.

12-P-0083                                                                                                           21
                     1.	 Publication of technical information documenting the scope and
                         significance of adverse environmental and water quality effects associated
                         with surface coal mining practices.

                     2.	 Recent reviews of permitting actions under CWA Sections 402 and 404
                         for Appalachian surface coal mining that demonstrate how current
                         permitting practices can be more effective in addressing adverse
                         environmental and water quality effects associated with coal mining by
                         more robustly conducting analyses required by the CWA.

                     3.	 Extensive work done by EPA’s scientific offices evaluating the
                         relationship between pollutants in streams associated with surface coal
                         mining and impacts from these pollutants on aquatic ecosystems.

                 EPA’s interim guidance cited scientific studies on the impact of conductivity on
                 aquatic life.25 The interim guidance included conductivity benchmarks of 300 and
                 500 μS/cm.26 Below 300 μS/cm, EPA anticipates that the conductivity impacts of
                 projects will not cause a water quality standard violation or significant
                 degradation of the aquatic ecosystem. EPA believes that projects projected to
                 increase conductivity levels above the 300 level should include permit conditions
                 requiring adaptive remedial action to prevent conductivity levels from rising to
                 levels that may contribute to water quality degradation. At the 500 or greater
                 level, EPA believes the scientific data demonstrate that water quality may be
                 adversely affected and aquatic life impacted. EPA believes that if a proposed
                 Section 404 permit allows for increases above the 500 level, the administrative
                 record for the permit should demonstrate how the permit is consistent with the
                 CWA and the CWA Section 404(b)(1) guidelines.

                 EPA’s interim guidance also lists as a best management practice the sequencing
                 of valley fills. Sequencing generally means that only one valley fill should be
                 authorized and demonstrated to be protecting water quality before constructing

25
   Pond, G.J., M.E. Passmore, F.A. Borsuk, L. Reynolds, and C.J. Rose. 2008. Downstream effects of mountaintop
coal mining: comparing biological conditions using family- and genus-level macroinvertebrate bioassessment tools.
J. N. Am. Benthol. Soc. 27(3):717–37. Kennedy, A.J., D.S. Cherry, and R.J. Currie. Field and laboratory assessment
of a coal processing effluent in the Leading Creek Watershed, Meigs County, Ohio. Archives of environmental
contamination and toxicology 44:324–31. Kentucky Department for Environmental Protection, Division of Water,
Water Quality Branch. Effects of Surface Mining and Residential Land Use on Headwater Stream Biotic Integrity in
the Eastern Kentucky Coalfield Region. Kennedy A. J., D.S. Cherry, and C.E. Zipper. Evaluation of Ionic
Contribution to the Toxicity of a Coal-Mine Effluent Using Ceriodaphnia dubia. Archives of environmental
contamination and toxicology 49.2:155–62. Pond, G.J. Patterns of Ephemeroptera taxa loss in Appalachian
headwater streams (Kentucky, USA). Hydrobiologia 641(1):185–201. U.S. EPA. 2011. A Field-Based Aquatic Life
Benchmark for Conductivity in Central Appalachian Streams. Office of Research and Development, National Center
for Environmental Assessment, Washington, DC. EPA/600/R-10/023F.
26
   The microSiemens level is based on Pond, G.J., M.E. Passmore, F.A. Borsuk, L. Reynolds, and C.J. Rose. 2008.
Downstream effects of mountaintop coal mining: comparing biological conditions using family- and genus-level
macroinvertebrate bioassessment tools. J. N. Am. Benthol. Soc. 27(3):717–37; and U.S. EPA. 2011 (draft). A Field-
Based Aquatic Life Benchmark for Conductivity in Central Appalachian Streams. Office of Research and
Development, National Center for Environmental Assessment, Washington, DC. EPA/600/R-10/023F.

12-P-0083                                                                                                            22
                 subsequent fills. If the permittee demonstrates compliance with applicable water
                 quality standards and there is no significant degradation associated with the first
                 valley fill, the permittee may begin construction of subsequent valley fills. EPA
                 prefers that applicants use sequencing when the potential exists for water quality
                 impacts to occur. The interim guidance allows EPA to reevaluate this approach if
                 data suggest that constructing concurrent valley fills would not lead to water
                 quality concerns, and EPA said it will evaluate multiple valley fills on a case-by-
                 case basis.

                 The April 1, 2010, interim guidance had no set a timetable for conductivity
                 analysis, as conductivity is one of many environmental and water quality factors
                 EPA considers when it reviews permit notifications per CWA Section 404.
                 Industry groups and some Appalachian states have filed lawsuits against EPA,
                 alleging that its interim guidance exceeded the Agency’s authority and amounted
                 to a rulemaking without required notice and comment under the Administrative
                 Procedure Act.

                 Number of Permits Reviewed After Issuance of April 1, 2010, Interim
                 Guidance

                 EPA applied its April 1, 2010, interim guidance in a future sense to all permit
                 notifications submitted after that date or submitted prior to that date but on which
                 EPA has yet to comment. EPA said it has consistently articulated, even before the
                 date of its interim guidance, concerns regarding the impacts of conductivity on
                 aquatic life following the publication of peer-reviewed scientific literature
                 documenting impacts.

                 Of the remaining 185 permit applications on the list, there were 24 surface mining
                 permit notifications on which EPA issued comments after it issued its April 1,
                 2010, interim guidance. To assess how many permit applications on the list of 185
                 EPA potentially reviewed or will review according to the April 1, 2010, interim
                 guidance, we looked at issued or withdrawn dates and pending permits. Of those:

                          	 There were 49 surface mining permit applications/notifications that
                             were issued or withdrawn after April 1, 2010, that did not have EPA
                             comments issued after April 1, 2010, but, as the final action occurred
                             after the guidance, they could have potentially been reviewed using the
                             guidance.

                          	 There are 49 surface mining permit applications still pending on which
                             EPA has not yet commented since April 1, 2010.27 As these permit
                             applications are still pending, they could potentially be reviewed using
                             the guidance.


27
  EPA did provide comments before April 1, 2010, on six of these applications, but since they are still pending, any
EPA comments after April 1, 2010, would consider the guidance.

12-P-0083                                                                                                              23
            Appendix A provides additional detail on projects and denotes in blue font the
            24 permit applications on which EPA commented.

            Industry Perspective

            Mining companies we interviewed said that the April 1, 2010, interim guidance
            and conductivity benchmarks slowed and complicated the review process.
            Companies also shared a concern that the benchmarks were arbitrary and not a
            good way to measure water quality. Companies added that the best management
            practice of sequencing valley fills created uncertainty for companies given the
            difficulties of investing in projects that may not be completed as planned. One
            company said that it was working on a new sequencing technique and that testing
            has provided favorable conductivity results. This company gave EPA a
            presentation on this new approach.




12-P-0083                                                                                     24
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0083                                                                                                                              25
                                                                                                                                   Appendix A

                                    Detailed Permit Application Information
Table Notes:
    Gray highlighted entries denote ECP projects.

    Blue font denotes surface coal mining projects reviewed in light of EPA’s April 1, 2010, interim guidance.

    If a public notification date was unknown, the application date was used and denoted in red font.

    For the section where actions were completed prior to May 12, 2009, green font denotes where we used withdrawn dates. 

    The table lists 236 projects from the list of 237 we received from the senator because one project was duplicated/listed twice in the 

       senator's list.

Table Acronyms:
JD—Jurisdictional determination
NWP 14—Linear Transportation Projects
NWP 21—Surface Coal Mining Operations
NWP 32—Completed Enforcement Actions
NWP 49—Coal Remining Activities
NWP 50—Underground Coal Mining Activities

Permits Issued:

  Company name          Application     Notification or    EPA comment
                                                                              Permit-issued date                        Notes
   Project name          number        application date     letter date(s)

Candle Ridge Mining     2003-1276       04/17/04               None                  04/22/10       Length of time from notification date to
Candle Ridge Mining                                                                                 permit-issued date was 2,195 days.
                                                                                                    Enforcement case due to unauthorized
                                                                                                    activity. Corps issued cease and desist order
                                                                                                    05/18/04. Referred to EPA 07/01/04. EPA
                                                                                                    issued consent agreement and final order
                                                                                                    11/20/09. After-the-fact NWP 21 verified
                                                                                                    04/22/10.
CONCO                    2003-468                              None                  06/02/09       Length of time from notification date to
Mill Creek Mine                                                                                     permit-issued date was 731 days. Corps
                                   06/01/07                                                         requested additional information from
                                                                                                    applicant.


12-P-0083                                                                                                                                      26
  Company name      Application    Notification or   EPA comment
                                                                        Permit-issued date                       Notes
   Project name      number       application date    letter date(s)

Oxford Mining        2003-98       08/19/09              None                05/13/10        Length of time from notification date to
Company LLC                                                                                  permit-issued date was 268 days.
Lafferty Adjacent
Area
Buckingham Coal     2004-1152      02/26/07     07/23/09 and 10/23/09        10/26/09        Permit issued 39 days before end of 60-day
Buckingham Wash                                                                              review period. Length of time from notification
Plant                                                                                        date to permit-issued date was 973 days.
                                                                                             Application processed through ECP, started
                                                                                             10/05/09 with 60-day clock ending 12/04/09.
Premium Coal         2004-62       05/30/08            03/22/10              05/18/10        Permit issued 57 days after end of 60-day
Area 19                                                                                      review period. Length of time from notification
                                                                                             date to permit-issued date was 718 days.
                                                                                             Application processed through ECP, started
                                                                                             01/19/10 with 60-day clock ending 03/22/10.
Jeffco Resources    2005-1057      03/17/08            04/10/08              02/12/10        Length of time from notification date to permit-
North Barnesville                                                                            issued date was 695 days.
A&G Coal             2005-11       03/11/09             None                 09/17/09        Length of time from notification date to
A&G Coal                                                                                     permit-issued date was 189 days. Also had
                                                                                             notification date of 06/27/08. Applicant
                                                                                             resubmitted plans that minimized proposed
                                                                                             impacts and updated mitigation.
Oxford              2005-1385      03/20/09            05/27/10              07/12/10        Permit issued 47 days after end of 60-day
Halls Knob                                                                                   review period. Length of time from
                                                                                             notification date to permit-issued date was
                                                                                             479 days. Application processed through
                                                                                             ECP, started 03/05/10 with 60-day clock
                                                                                             ending 05/04/10.
Oxford               2005-421      12/23/09            04/09/10              06/09/10        Length of time from notification date to
Peabody 3                                                                                    permit-issued date was 168 days. Corps
                                                                                             said IP application submitted 02/10/09 had
                                                                                             notification 03/20/09 (we documented this).
                                                                                             Application withdrawn from ECP 11/20/09 to
                                                                                             be redesigned; resubmitted 11/30/09.



     12-P-0083                                                                                                                            27
  Company name      Application    Notification or   EPA comment
                                                                       Permit-issued date                      Notes
   Project name      number       application date    letter date(s)

Oxford Mining        2005-723      08/18/09            09/08/09             01/19/10        Length of time from notification date to
Long Sears Adj                                                                              permit-issued date was 153 days. We also
                                                                                            documented previous public notification
                                                                                            dated 01/16/09 and withdrawal dated
                                                                                            07/30/09. List of 237 listed application
                                                                                            number as 2005-753.
Hope Coal Co.       2006-1375      07/22/08             None                11/13/09        Length of time from application date to
Trey Mine                                                                                   permit-issued date was 478 days. Corps
                                                                                            said internal administrative delay.
                                                                                            Coordination not required; impacts to
                                                                                            waters less than 0.5 acres.
Sands Hill          2006-2247      01/20/09            01/25/10             02/02/10        Length of time from notification date to
Big Rock                                                                                    permit-issued date was 377 days.
CONSOL of Ky        2006-2294      04/24/08      06/11/09, 05/17/10,        08/06/09        Length of time from notification date to
Peg Fork                                            09/14/10, and                           permit-issued date was 468 days. Initial
                                                      02/28/11                              permit approved two valley fills.

Maple Coal Co       2006-2394      07/06/07             None                07/02/09        Length of time from notification date to
Sycamore North                                                                              permit-issued date was 726 days.
Tunnel Ridge, LLC    2006-427      04/10/09             None                04/12/10        Length of time from notification date to
Tunnel Ridge Prep                                                                           permit-issued date was 367 days.
Plant/Refuse Area
Sandlick Coal        2006-66       08/31/09             None                09/14/09        Length of time from notification date to
Company                                                                                     permit-issued date was 14 days. Resolution
Foresters Creek                                                                             of Endangered Species Act concerns from
                                                                                            U.S. Fish and Wildlife Service required.
                                                                                            Notification dated 05/06/09 submitted for
                                                                                            NWP 49, later resubmitted to change
                                                                                            application to NWP 21.




     12-P-0083                                                                                                                         28
  Company name        Application    Notification or   EPA comment
                                                                         Permit-issued date                      Notes
   Project name        number       application date    letter date(s)

Highland Mining       2006-663 /     03/25/08      03/23/09, 04/28/09,        03/04/11        Length of time from notification date to
Reylas                 2007-99                        and 09/30/09                            permit-issued date was 1,074 days. Court
                                                                                              granted temporary restraining order
                                                                                              03/08/11 and prohibited filling stream under
                                                                                              CWA Section 404 permit. Court remanded
                                                                                              decision back to Corps district 04/15/11.
Cloverfork Mining &    2006-838      03/16/10             None                05/05/10        Length of time from notification date to
Excavation                                                                                    permit-issued date was 50 days. Applicant
Cloverfork Mining &                                                                           originally submitted IP 05/01/08 but
Excavation                                                                                    withdrew 03/10/10 and resubmitted as
                                                                                              NWP 49, which was verified. (We
                                                                                              documented 03/12/10 public notification.)
                                                                                              List of 237 listed application number as
                                                                                              2004-1836.
Gatliff Coal           2006-917      05/08/09             None                07/10/09        Length of time from application date to
Jamieson                                                                                      permit-issued date was 63 days. Additional
Construction                                                                                  notification dated 03/23/07 because
                                                                                              applicant changed proposed impacts and
                                                                                              mitigation from original submittals.
Oxford Mining         2007-1021      01/20/09            03/05/10             03/08/10        Permit issued within 60-day review period.
Kaiser Mathias                                                                                Length of time from notification date to
                                                                                              permit-issued date was 414 days. There
                                                                                              was a delay in obtaining SMCRA permit.
                                                                                              We documented notification dated 01/26/09.
                                                                                              Application processed through ECP, started
                                                                                              01/06/10 with 60-day clock ending 03/08/10.
EME Homer City        2007-1079      07/28/09             None                09/02/09        Length of time from notification date to
Generation L.P.                                                                               permit-issued date was 34 days.
EME Refuse
Disposal Site
Davis Creek Energy    2007-1767      06/26/09             None                04/20/10        Length of time from notification date to
Area #4                                                                                       permit-issued date was 298 days.




     12-P-0083                                                                                                                           29
  Company name         Application    Notification or   EPA comment
                                                                           Permit-issued date                      Notes
   Project name         number       application date    letter date(s)

New Yellow Ck. Coal    2007-2162       08/24/09            None                 10/29/09        Length of time from application date to
New Yellow Creek                                                                                permit-issued date was 66 days. Corps said
Mine                                                                                            internal administrative delay. Coordination
                                                                                                not required; impacts to waters less than
                                                                                                0.5 acres.
Ohio American           2007-323                           None                 01/26/10        Length of time from notification date to
Energy                                                                                          permit-issued date was 137 days.
Salt Run North                  09/11/09
DRC Coal                2007-345                          05/17/10              06/25/10        Length of time from notification date to
White Oak Surface                                                                               permit-issued date was 86 days. Applicant
                                  03/31/10                                                      performed unauthorized work. Cease and
                                                                                                desist order issued 03/03/10. IP application
                                                                                                withdrawn 03/22/10 (this application
                                                                                                submitted 09/02/08) and after-the-fact
                                                                                                NWP 49 verified.
                        2007-463                          06/30/09              06/11/10        Length of time from notification date to
Consolidated Coal
                                                                                                permit-issued date was 451 days. Corps
Company
                                  03/16/09                                                      cited CWA Section 401 delays. We
Bailey Mine
                                                                                                documented permit issue date 06/16/10.
Argus Energy, LLC       2007-89                    06/12/09 and 03/05/10        03/08/10        Length of time from notification date to
Wiley Branch Surface                                                                            permit-issued date was 297 days. However,
Mine Amendment                 05/15/09                                                         documentation indicates permit issued
No. 3                                                                                           05/13/10.
Nally & Hamilton        2007-946                           None                 04/23/10        Length of time from notification date to
Nally & Hamilton                                                                                permit-issued date was 365 days. Also
                                  04/23/09                                                      included notification for NWP 21 dated
                                                                                                12/17/07.
M&B Excavating         2008-1313       09/02/08            None                 08/24/09        Length of time from application date to
Thompson South                                                                                  permit-issued date was 357 days. Corps
Mine                                                                                            internal administrative delay. Coordination
                                                                                                not required; impacts to waters less than
                                                                                                0.5 acres.




     12-P-0083                                                                                                                                30
  Company name          Application    Notification or   EPA comment
                                                                           Permit-issued date                      Notes
   Project name          number       application date    letter date(s)

North Fork Collieries   2008-1358      03/23/09             None                05/22/09        Length of time from notification date to
Gilmore Surface Mine                                                                            permit-issued date was 60 days. Corps said
                                                                                                internal administrative delay. List of 237 had
                                                                                                application number as 2008-1368.
Hope Coal Co. -         2008-1445      09/23/08             None                05/29/09        Length of time from application date to
Piper Mine                                                                                      permit-issued date was 249 days.
                                                                                                Coordination not required; impacts to
                                                                                                waters less than 0.5 acres. Application also
                                                                                                listed as number 2006-1375.
Martin County C         2008-1457      04/30/09             None                07/27/09        Length of time from application date to
Martin County                                                                                   permit-issued date was 88 days. Corps said
                                                                                                internal administrative delay. After-the-fact
                                                                                                permit. Also had notification date of
                                                                                                12/23/08.
Martin County C         2008-1458      04/28/09             None                07/27/09        Length of time from application date to
Martin County                                                                                   permit-issued date was 90 days. Corps said
                                                                                                internal administrative delay. After-the-fact
                                                                                                permit. Also had notification date of
                                                                                                12/23/08.
Martin County C         2008-1459      04/30/09             None                07/27/09        Length of time from application date to
Martin County                                                                                   permit-issued date was 88 days. Corps said
                                                                                                internal administrative delay. After-the-fact
                                                                                                permit. Also had notification date of
                                                                                                12/23/08.
Consolidated Coal       2008-1782      08/03/09            09/01/09             08/20/10        Length of time from notification date to
Company                                                                                         permit-issued date was 382 days.
Oak Spring Slope
and Supply Yard
B'ham Coal & Coke       2008-1809      04/28/09             None                06/12/09        Length of time from notification date to
Powhatan Mine                                                                                   permit-issued date was 45 days.
Apex Mining              2008-212      04/08/09             None                06/06/09        Length of time from notification date to
Apex Mining                                                                                     permit-issued date was 59 days. Corps said
                                                                                                internal administrative delay.



     12-P-0083                                                                                                                              31
  Company name        Application    Notification or   EPA comment
                                                                          Permit-issued date                     Notes
   Project name        number       application date    letter date(s)

Czar Coal              2008-226      04/22/08     05/19/10 and 06/23/10        03/03/11        Permit issued 262 days after end of 60-day
Czar Coal                                                                                      review period. Length of time from
                                                                                               notification date to permit-issued date was
                                                                                               1,045 days. Permit proffered 07/23/10
                                                                                               (documented) but applicant objected to
                                                                                               proffered permit (documented letter dated
                                                                                               08/24/10). Application processed through
                                                                                               ECP, started 04/13/10 with 60-day clock
                                                                                               ending 06/14/10.
B&N Coal               2008-260      03/16/09             None                 06/01/09        Length of time from notification date to
Whigville III                                                                                  permit-issued date was 76 days.
McElroy Coal           2008-563      04/10/09             None                 04/01/10        Length of time from notification date to
Company                                                                                        permit-issued date was 356 days.
McElroy Refuse Area                                                                            Documentation indicates public notification
                                                                                               dated 04/22/09 replaced one dated
                                                                                               04/10/09, and that permit signed 04/08/10.
ICG Hazard             2008-666      03/04/09            04/08/09              06/03/09        Length of time from notification date to
ICG Hazard                                                                                     permit-issued date was 90 days. Corps said
                                                                                               internal administrative delay.
Hobet Mining           2008-791      09/10/08            01/04/10              01/06/10        Permit issued 5 days after end of 60-day
Surface Mine No. 45                                                                            review period. Length of time from
                                                                                               notification date to permit-issued date was
                                                                                               483 days. Application processed through
                                                                                               ECP, started 11/02/09 with 60-day clock
                                                                                               ending 01/10/10.
New Acton Mining       2008-823      07/08/09             None                 07/23/09        Length of time from notification date to
Slate Creek Mine                                                                               permit-issued date was 15 days.
CoalMac, Inc.          2008-830      09/16/08            06/21/10              07/27/10        Permit issued 72 days after end of 60-day
Pine Creek Surface                                                                             review period. Length of time from
Mine                                                                                           notification date to permit-issued date was
                                                                                               680 days. Application processed through
                                                                                               ECP, started 04/06/10 with 60-day clock
                                                                                               ending 06/05/10.



     12-P-0083                                                                                                                           32
  Company name        Application    Notification or   EPA comment
                                                                         Permit-issued date                      Notes
   Project name        number       application date    letter date(s)

Cambrian Coal          2008-93       04/13/09             None                07/01/09        Length of time from notification date to
Group                                                                                         permit-issued date was 79 days. Corps said
Cambrian Coal                                                                                 internal administrative delay.
Group
Pine Branch C          2009-198      03/02/09            04/08/09             09/04/09        Length of time from notification date and to
Pine Branch C                                                                                 permit-issued date was 185 days. Corps
                                                                                              said internal administrative delay.
Travis Creek Mining    2009-275      04/29/09             None                08/04/09        Length of time from notification date to
Trafford Mine                                                                                 permit-issued date was 96 days.
Coresco, LLC           2009-288      04/29/09            08/18/09             09/04/09        Length of time from notification date to
Coresco Overland                                                                              permit-issued date was 127 days. EPA’s
Conveyor Belt                                                                                 response noted no comments or objections.
                                                                                              We documented 08/12/09 public
                                                                                              notification.
Black Warrior          2009-323      06/03/09             None                06/30/09        Length of time from application date to
Minerals                                                                                      permit-issued date was 27 days.
Manchester East                                                                               Coordination not required; impacts to
                                                                                              waters less than 0.5 acres. Modified permit
                                                                                              01/07/11.
Enterprise Mining      2009-422      05/19/09            03/17/10             08/27/09        Length of time from notification date to
Trace Fork Surface                                                                            permit-issued date was 99 days. Corps said
Mine                                                                                          internal administrative delay. We
                                                                                              documented EPA letter to Corps dated
                                                                                              03/17/10 in which EPA recommended
                                                                                              application be considered under IP rather
                                                                                              than NWP 21. Recommendation based on
                                                                                              potential for additional avoidance and
                                                                                              minimization, potential for water quality
                                                                                              degradation, and compensatory mitigation
                                                                                              plan that may not compensate for
                                                                                              unavoidable impacts. Water quality
                                                                                              concerns included conductivity discussion
                                                                                              with EPA, explaining concern that existing
                                                                                              water quality conditions may not currently
                                                                                              support Kentucky's existing standards.

     12-P-0083                                                                                                                           33
  Company name        Application    Notification or   EPA comment
                                                                         Permit-issued date                     Notes
   Project name        number       application date    letter date(s)

Consol of Kentucky     2009-428      02/06/09            02/14/11             02/14/11        Permit issued within 60-day review period.
Spring Branch No. 3                                                                           Length of time from notification date to
Deep Mine                                                                                     permit-issued date was 738 days. Corps
                                                                                              said this was NWP 50. Application
                                                                                              processed through ECP, started 12/17/10
                                                                                              with 60-day clock ending 02/15/11.
Miller Bros. Coal      2009-463      09/08/09             None                12/15/09        Length of time from notification date to
Miller Bros. Coal                                                                             permit-issued date was 98 days. Application
                                                                                              also listed as 2007-669.
Twin Pines Coal Co.    2009-467      04/03/09            04/06/09             05/20/09        Length of time from notification date to
Lick Creek Mine                                                                               permit-issued date was 48 days.
Reed Minerals Inc.     2009-470      06/11/09             None                07/23/09        Length of time from notification date to
No. 5 Mine                                                                                    permit-issued date was 43 days.
Aldwych, LLC           2009-572      06/25/09             None                07/27/09        Length of time from notification date to
Four Oaks Mine #2                                                                             permit-issued date was 32 days.
Paramount Coal         2009-815      03/02/10            03/03/10             09/14/10        Length of time from notification date to
Dry Fork                                                                                      permit-issued date was 195 days.




     12-P-0083                                                                                                                          34
Applications Withdrawn:


 Company name       Application    Notification or   EPA comment       Withdrawn
                                                                                                          Notes
  Project name       number       application date    letter date(s)      date

Hobet Mining         2003-65         05/02/06            None           07/02/09	   Length of time from notification date to
Hewett                                                                              withdrawn date was 1,156 days. According to
                                                                                    public notice document we reviewed (dated
                                                                                    05/02/06), Corps issued NWP 21 verification
                                                                                    02/04/04 but then revoked verification 09/24/04
                                                                                    due to litigation. Company applied for IP in 2006
                                                                                    (public notice 05/02/06) then completed
                                                                                    construction under revoked NWP. This is a
                                                                                    possible unauthorized discharge. Corps said IP
                                                                                    administratively withdrawn due to lack of
                                                                                    applicant response to request for additional
                                                                                    information. Application withdrawn from ECP.
Alden Resources     2004-1108        07/03/06            None           04/12/10	   No completed application received.
Alden Resources 	                                                                   Administratively withdrawn because applicant
                                                                                    did not respond to request for additional
                                                                                    information. Subsequently, Alden Resources
                                                                                    submitted preapplication consultation for same
                                                                                    site, but no application has been received. List
                                                                                    of 237 listed company name and project name
                                                                                    both as Ikerd Coal.
Brooks Run          2004-1155        03/22/06            None           08/17/09	   Length of time from notification date to
Mining                                                                              withdrawn date was 1,242 days. Application
Brandy St & Cove                                                                    withdrawn from ECP. We documented
Mtn.                                                                                withdrawal date 08/13/09.
Nally & Hamilton    2004-1254        02/11/08            None           07/10/09	   No completed application received.
Nally & Hamilton	                                                                   Administratively withdrawn because applicant
                                                                                    did not respond to request for additional
                                                                                    information.




12-P-0083                                                                                                                         35
 Company name     Application    Notification or   EPA comment       Withdrawn
                                                                                                        Notes
  Project name     number       application date    letter date(s)      date

CH Development    2004-1391        09/12/08            None           01/21/10    No completed application received. Applicant
CH Development                                                                    requested reverification of NWP previously
                                                                                  verified in 2006. Application not complete and
                                                                                  administratively withdrawn because applicant
                                                                                  did not respond to request for additional
                                                                                  information.
Independence       2004-145        12/13/05            None           02/19/10    Length of time from notification date to
Coal Company                                                                      withdrawn date was 1,527 days. We
Glory Surface                                                                     documented EPA comment letter dated
Mine                                                                              04/01/04 and 09/19/10 withdrawal notification.
                                                                                  Application withdrawn from ECP. List of 237
                                                                                  listed application number as 2004-1451.
Appolo Fuels      2004-2228        12/14/07            None           10/30/09    No completed application received. Application
Fonde-Highwall                                                                    administratively withdrawn after applicant
                                                                                  performed unauthorized work. Corps worked
                                                                                  with applicant to resolve enforcement action;
                                                                                  resolution agreement pending signature.
Bear Fork          2004-336        02/08/06            None           01/18/11    Length of time from notification date to
Bear Fork S.M.                                                                    withdrawn date was 1,805 days. Transferred
                                                                                  between Corps districts during boundary
                                                                                  realignment. File sent to EPA for enforcement
                                                                                  action 05/25/10 and administratively withdrawn.
Independence       2004-624        07/15/04           08/31/04        02/19/10    Length of time from notification date to
Coal Company                                                                      withdrawn date was 2,042 days. Application
Constitution                                                                      withdrawn from ECP.
Surface Mine
Premium Energy,   2005-1211        06/10/08            None           04/26/09	   Length of time from application date to
Inc.                                                                              withdrawn date was 320 days. We documented
Premium Mills                                                                     public notice dated 07/09/08 and withdrawn date
Surface Mine                                                                      of 08/26/09. Application withdrawn from ECP.
Catenary Coal      2005-167        08/24/06            None           02/22/11    Length of time from notification date to
Co.                                                                               withdrawn date was 1,640 days.
Tenmile Fork
Deep Mine



     12-P-0083                                                                                                                 36
 Company name      Application    Notification or   EPA comment       Withdrawn
                                                                                                        Notes
  Project name      number       application date    letter date(s)      date

Consol of KY        2006-126        04/16/06            None           05/20/10   Length of time from notification date to
Area 80                                                                           withdrawn date was 1,494 days. Administratively
                                                                                  withdrawn because applicant did not respond to
                                                                                  request for additional information.
Consol of KY        2006-127        03/16/06            None           09/09/09   Length of time from notification date to
Slone Br Mine                                                                     withdrawn date was 1,270 days.
Licking River      2006-1290        12/05/06            None           05/19/10   Length of time from notification date to
Resources                                                                         withdrawn date was 1,261 days. Administratively
Licking River                                                                     withdrawn because applicant did not respond to
Resources                                                                         request for additional information.
Nally & Hamilton   2006-1647        07/31/06            None           11/13/09   Complete application not received before
Nally & Hamilton                                                                  application withdrawn.
Buckeye Ind        2006-2001        04/22/08            None           11/30/09   Length of time from application date to
Mining                                                                            withdrawn date was 586 days. Corps said permit
Beaver Excav                                                                      not resubmitted.
Wildcat            2006-2033        03/05/08            None           03/02/11   Length of time from notification date to
#2 Surface                                                                        withdrawn date was 1,092 days. Corps said
                                                                                  administratively withdrawn due to lack of
                                                                                  applicant response to request for additional
                                                                                  information. Application withdrawn from ECP.
Colony Bay Coal    2006-2290        01/23/09           03/23/09        02/17/10   Length of time from notification date to
Co.                                                                               withdrawn date was 389 days. Application
Colony Bay                                                                        withdrawn from ECP.
Surface Mine
Jewell Smokeless   2006-6158        12/05/05           04/23/09        04/21/10   Length of time from application date to
JSCC                                                                              withdrawn date was 1,598 days. Corps said
                                                                                  applicant failed to respond to several requests
                                                                                  for information; application administratively
                                                                                  withdrawn. We documented 03/31/09 public
                                                                                  notification.




     12-P-0083                                                                                                                      37
 Company name      Application    Notification or   EPA comment       Withdrawn
                                                                                                         Notes
  Project name      number       application date    letter date(s)      date

Ohio American       2006-660        09/30/08            None           01/04/10	   Length of time from notification date to
Energy                                                                             withdrawn date was 460 days. ECP clock
Red Bird South                                                                     started 10/06/09 but Corps placed it on hold to
                                                                                   wait for information from applicant. Original end
                                                                                   of 60-day clock was 12/04/09.
ICG Hazard          2006-756        06/30/06            None           08/14/09    Length of time from notification date to
ICG Hazard                                                                         withdrawn date was 1,140 days.
Catenary Coal       2006-821        08/21/06            None           02/22/11    Length of time from notification date to
Co.                                                                                withdrawn date was 1,644 days.
Laurel Fork
Frasure Creek      2007-1026        12/13/07            None           01/18/11	   Length of time from notification date to
Mining                                                                             withdrawn date was 1,130 days. Withdrawn and
Frasure Creek                                                                      referred to EPA for enforcement action.
Mining
Apex Energy        2007-1044        08/28/07            None           05/24/10	   Length of time from notification date to
Apex Energy                                                                        withdrawn date was 1,000 days. Application
                                                                                   withdrawn by applicant who avoided impacts to
                                                                                   waters so no permit required.
The Raven Co.      2007-1104        09/05/07            None           05/20/10	   Length of time from notification date to
The Raven Co.                                                                      withdrawn date was 989 days. Administratively
                                                                                   withdrawn because applicant did not respond to
                                                                                   request for additional information.
Pine Branch Coal   2007-1190        11/28/07            None           06/23/09    Length of time from notification date to
Pine Branch Coal                                                                   withdrawn date was 573 days.

Matt/Co            2007-1205        12/05/07            None           05/19/10    Length of time from notification date to
Matt/Co                                                                            withdrawn date was 896 days. Administratively
                                                                                   withdrawn because applicant did not respond to
                                                                                   request for additional information.
Frasure Creek      2007-1206        07/08/08            None           01/19/11    Length of time from notification date to
Mining                                                                             withdrawn date was 924 days. Withdrawn and
Frasure Creek                                                                      referred to EPA for enforcement action.
Mining


     12-P-0083                                                                                                                     38
 Company name     Application    Notification or   EPA comment       Withdrawn
                                                                                                       Notes
  Project name     number       application date    letter date(s)      date

FCDC              2007-1397        10/20/08            None           05/19/10   Length of time from notification date to
FCDC                                                                             withdrawn date was 577 days. Administratively
                                                                                 withdrawn because applicant did not respond to
                                                                                 request for additional information.
ICG Hazard        2007-1406        07/06/08           08/12/08        05/19/10   Length of time from notification date to
Bearville North                                                                  withdrawn date was 682 days. Administratively
                                                                                 withdrawn because applicant did not respond to
                                                                                 request for additional information.
FCDC              2007-1445        11/29/07            None           05/19/10   Length of time from notification date to
FCDC                                                                             withdrawn date was 902 days. Administratively
                                                                                 withdrawn because applicant did not respond to
                                                                                 request for additional information.
FCDC Coal         2007-1498        11/15/08           11/17/08        10/27/10   Length of time from notification date to
FCDC Coal                                                                        withdrawn date was 712 days.
ICG Hazard        2007-1515        12/06/07            None           03/04/10   Length of time from notification date to
ICG Hazard                                                                       withdrawn date was 819 days.
Clintwood         2007-1518        12/05/07            None           08/31/10   Length of time from notification date to
Elkhorn                                                                          withdrawn date was 1,000 days. Administratively
Clintwood                                                                        withdrawn because applicant did not respond to
Elkhorn                                                                          request for additional information.
Laurel Mountain   2007-1582        12/28/07            None           01/13/10   Length of time from notification date to
Resources                                                                        withdrawn date was 745 days.
Laurel Mountain
Resources
Consol of KY      2007-1644        03/12/08            None           11/23/09   Length of time from notification date to
Consol of KY                                                                     withdrawn date was 619 days. We documented
                                                                                 08/13/09 letter saying withdrawn because work
                                                                                 completed.
Premier Elkhorn    2007-193        03/14/07            None           02/17/11   Length of time from notification date to
Coal                                                                             withdrawn date was 1,433 days. Administratively
Premier Elkhorn                                                                  withdrawn because applicant did not respond to
Coal                                                                             request for additional information.




     12-P-0083                                                                                                               39
 Company name      Application    Notification or   EPA comment       Withdrawn
                                                                                                         Notes
  Project name      number       application date    letter date(s)      date

Apex Energy         2007-335        05/02/07            None           04/27/10	   Length of time from notification date to
Apex Energy                                                                        withdrawn date was 1,090 days. Application
                                                                                   withdrawn by applicant who avoided impacts to
                                                                                   waters so no permit required.
Consol of KY        2007-393        05/03/07            None           07/08/09    Length of time from notification date to
Razorblade                                                                         withdrawn date was 796 days.
Surface Mine
Argus Energy        2007-400        08/15/07            None           06/29/10	   Length of time from notification date to
Argus Energy                                                                       withdrawn date was 1,048 days. Corps said
                                                                                   permit withdrawn 06/29/09; however, we
                                                                                   documented 06/29/10 withdrawal.
Revelation          2007-401        05/08/07            None           06/17/10	   Length of time from notification date to
Energy, LLC                                                                        withdrawn date was 1,135 days. List of 237
Revelation                                                                         listed company name and project name as
Energy, LLC                                                                        Candle Ridge Mining.
Leeco, Inc.         2007-595        09/04/07            None           06/28/10	   Length of time from notification date to
Elk Lick                                                                           withdrawn date was 1,028 days. Administratively
                                                                                   withdrawn because applicant did not respond to
                                                                                   request for additional information.
Laurel Mtn.         2007-669        07/13/07            None           07/08/09    Length of time from notification date to
Resources                                                                          withdrawn date was 725 days. List of 237 listed
Laurel Mtn.                                                                        company name and project name as Miller Bros.
Resources                                                                          Coal.
Johnson Floyd       2007-706        07/19/07            None           11/23/09	   Length of time from notification date to
Coal                                                                               withdrawn date was 856 days. Applicant met
Johnson Floyd                                                                      with agencies and revised mine plan to avoid
Coal                                                                               impacts to waters, so no permit required.
Nally & Hamilton    2007-820        10/01/08            None           04/12/10	   Length of time from notification date to
Nally & Hamilton                                                                   withdrawn date was 559 days. We documented
                                                                                   NWP 21 notification dated 10/08/08.
BDCC Holdings       2008-114        04/09/08            None           05/19/10	   Length of time from notification date to
Cherries Branch                                                                    withdrawn date was 771 days. Administratively
                                                                                   withdrawn because applicant did not respond to
                                                                                   request for additional information.

     12-P-0083                                                                                                                    40
 Company name     Application            Notification or   EPA comment       Withdrawn
                                                                                                                Notes
  Project name     number               application date    letter date(s)      date

Wolverine          2008-115                04/17/08            None           05/19/10	   Length of time from notification date to
Resources                                                                                 withdrawn date was 762 days. Administratively
Jake Fork and                                                                             withdrawn.
Stoney Branch
Surface Mine
Apex Energy        2008-139                03/02/09           12/29/09        04/21/10	   Length of time from notification date to
Apex Energy                                                                               withdrawn date was 415 days. Also had
                                                                                          notification date 03/31/08. Applicant revised
                                                                                          project so no impacts to waters and no permit
                                                                                          required. ECP started 10/16/09 but applicant
                                                                                          withdrew before completed.
Patriot Mining    2008-1564                02/26/10           02/09/10        05/19/10    Length of time from notification date to
Company                                                                                   withdrawn date was 84 days. Documentation
Wades Run                                                                                 stated public notification date 01/26/10 (closing
extension                                                                                 date 02/26/10). List of 237 listed application
                                                                                          number as 2008-2414.
Czar Coal          2008-408                05/14/08            None           09/18/10    Length of time from notification date to
Czar Coal                                                                                 withdrawn date was 856 days. According to
                                                                                          EPA comment letter dated 08/05/11, permit
                                                                                          application resubmitted and public notice issued
                                                                                          06/30/11. Letter mentions conductivity values.
Laurel Mtn.        2008-727                02/27/09            None           04/06/10    Length of time from notification date to
Resources                                                                                 withdrawn date was 405 days. Administratively
Laurel Mtn.                                                                               withdrawn because applicant did not respond to
Resources                                                                                 request for additional information. List of 237
                                                                                          listed company name and project name as Miller
                                                                                          Bros. Coal. We documented e-mail stating
                                                                                          project withdrawn by applicant on 02/23/10.
Eastern            2008-75                 07/08/08            None           07/28/09    Length of time from application date to
Associated Coal                                                                           withdrawn date was 385 days.
Huff Creek Haul
Road
ICG Hazard         2008-777                                    None           06/30/09    Length of time from notification date to
ICG Hazard                                                                                withdrawn date was 335 days.



     12-P-0083               07/31/08                                                                                                     41
 Company name       Application    Notification or   EPA comment       Withdrawn
                                                                                                          Notes
  Project name       number       application date    letter date(s)      date

Wolverine            2008-781        07/18/08            None           05/20/10    Length of time from application date to
Resources                                                                           withdrawn date was 671 days. Administratively
Wolverine                                                                           withdrawn because applicant did not respond to
Resources                                                                           request for additional information.
Coyote Coal          2008-805        03/20/09            None           03/29/11    Length of time from notification date to
Company                                                                             withdrawn date was 739 days. Corps said
Joes Creek                                                                          administratively withdrawn due to lack of
Surface Mine                                                                        applicant response. Did not meet NWP 49
                                                                                    criteria. Application withdrawn from ECP.
Premier Elkhorn      2008-95         03/12/08            None           08/31/10    Length of time from notification date to
Coal                                                                                withdrawn date was 901 days. Administratively
Premier Elkhorn                                                                     withdrawn because applicant did not respond to
Coal                                                                                request for additional information.
Clintwood            2009-182        09/16/09           02/26/10        07/19/10    Length of time from notification date to
Elkhorn                                                                             withdrawn date was 307 days. Application
Clintwood                                                                           withdrawn by applicant who avoided impacts to
Elkhorn                                                                             waters, so no permit required.
Frasure Creek        2009-237        06/19/09            None           06/16/10    No completed application received.
Mining                                                                              Administratively withdrawn because applicant
Frasure Creek                                                                       did not respond to request for additional
Mining                                                                              information.
Frasure Creek        2009-239        04/10/09           05/26/09        06/14/10	   Length of time from notification date to
Mining                                                                              withdrawn date was 430 days. List of 237 listed
Frasure Creek                                                                       application number as 2008-239.
Mining
Miller Bros. Coal    2009-368        04/07/09            None           04/07/10    No completed application received. Application
Miller Bros. Coal                                                                   withdrawn because applicant did not respond to
                                                                                    request for additional information.
Lone Mountain        2009-576        03/11/09            None           02/22/10    Length of time from application date to
Processing Prep                                                                     withdrawn date was 346 days.
Plant
Knox Creek Coal      2009-577        03/11/09            None           12/03/09    Length of time from application date to
Trace Fork                                                                          withdrawn date was 266 days.
Surface Mine

     12-P-0083                                                                                                                     42
 Company name    Application    Notification or   EPA comment       Withdrawn
                                                                                                    Notes
  Project name    number       application date    letter date(s)      date

Frasure Creek     2009-95         05/06/09            None           06/16/10   Length of time from notification date to
Mining                                                                          withdrawn date was 406 days. Administratively
Frasure Creek                                                                   withdrawn because applicant did not respond to
Mining                                                                          request for additional information.




     12-P-0083                                                                                                              43
Applications Pending:


    Company name         Application    Notification or    EPA comment
                                                                                                               Notes
     Project name         number       application date     letter date(s)

Sand Hill Coal Co.        2001-407         02/13/08                             Length of time application pending from most recent notification
Big Valley Mine                                                                 date to 05/27/11 is 1,200 days. Corps noted as unauthorized fill
                                                                                enforcement action.
Appolo Fuels              2002-609         09/21/04                             Length of time application pending from most recent notification
Jellico Strip                                                                   date to 05/27/11 is 2,439 days. Enforcement case due to
                                                                                unauthorized work performed before permit issued. Resolution
                                                                                agreement signed 04/11/11. List of 237 listed application number
                                                                                as 2004-609.
Alex Energy               2003-238                        04/03/09, 04/28/09,   Length of time application pending from most recent notification
Republic No.1                                                and 06/04/10       date to 05/27/11 is 871 days. Original permit dated 08/04/06
                                                                                voluntarily forfeited 12/15/08 due to a lawsuit. On 03/02/10, Massey
                                                                                advised that Republic No. 1 is a priority and it will submit data soon.
                                  01/08/09
Premier Elkhorn           2004-1557        09/22/05                             Complete application not received.
Premier Elkhorn
Green Valley Coal         2005-1115        10/04/05            02/09/10         Length of time application pending from most recent notification
Company                                                                         date to 05/27/11 is 2,061 days. We documented PCN for NWP 21
Blue Branch Refuse                                                              on 02/23/00 with permit no. 1998-1315. EPA commented to that
                                                                                notification 03/15/00, urging Corps to reconsider application as IP.
                                                                                Corps verified NWP 21 03/20/00. EPA commented to Corps
                                                                                03/15/04, reasserting position that Corps reconsider application as
                                                                                IP. Corps says still pending because it awaits approved final
                                                                                mitigation plan. Project will be reviewed under ECP.*
Marrowbone                2005-1198        11/07/05                             Length of time application pending from most recent notification
Development                                                                     date to 05/27/11 is 2,028 days. Corps said that additional
Taywood West &                                                                  information needed on revised impacts, monitoring and adaptive
Marrowbone                                                                      management plan, and compensatory mitigation plan. Project will
                                                                                be reviewed under ECP.*
Appolo Fuels              2005-1691        08/08/07                             A complete application not received. Enforcement case due to
Buckeye Springs Mine 2                                                          unauthorized work. Resolution agreement signed 04/11/11.
Bluestone                 2005-217         04/13/05                             Length of time application pending from most recent notification
ContourAuger1                                                                   date to 05/27/11 is 2,235 days. Corps stated it needs extensive
                                                                                information. Project will be reviewed under ECP.*



12-P-0083                                                                                                                                           44
    Company name          Application    Notification or   EPA comment
                                                                                                           Notes
     Project name          number       application date    letter date(s)

Kimble Clay & Limestone    2005-478         10/20/10          02/08/11       Length of time application pending from most recent notification
Hunt                                                                         date to 05/27/11 is 220 days. According to Corps, IP application
                                                                             submitted 01/18/07 with public notice 03/01/07 (documented). EPA
                                                                             and Corps jointly commented on 11/24/09, urging applicant to
                                                                             withdraw. Region 5 explained that comments delayed because it
                                                                             performed several site visits with Corps and held several
                                                                             preapplication meetings to try to reduce impacts. Withdrawn
                                                                             07/27/10 because mine plan changed. Applicant resubmitted
                                                                             project (we documented public notice 12/10/10).
Leeco                      2005-851         09/24/07                         Length of time application pending from most recent notification
Leeco                                                                        date to 05/27/11 is 1,341 days. List of 237 listed company name
                                                                             and project name as Cheyenne Resources.*
Premier Elkhorn            2005-934         01/06/06                         Length of time application pending from most recent notification
U/T Old Beefhide                                                             date to 05/27/11 is 1,968 days. Transferred between Corps districts
                                                                             during boundary realignment.*
ICG Eastern, LLC           2006-100         03/03/11                         Length of time application pending from most recent application
Jenny Creek Surface                                                          date to 05/27/11 is 85 days. Corps shows IP application submitted
Mine                                                                         02/05/09 (documented) and withdrawn 11/08/10. Mine plan
                                                                             changed and application resubmitted 03/03/11. Per 10/07/10 letter
                                                                             from ICG, application withdrawn to address West Virginia’s recently
                                                                             implemented Permitting Guidance for Surface Coal Mining
                                                                             Operations to Protect West Virginia’s Narrative Water Quality
                                                                             Standards. Application withdrawn from ECP 11/08/10 and
                                                                             resubmitted outside ECP 03/03/11. List of 237 listed application
                                                                             number as 2005-370. We also documented application number of
                                                                             2006-1000.
Matt/Co                    2006-1124        02/14/07                         Length of time application pending from most recent notification
Matt/Co                                                                      date to 05/27/11 is 1,564 days.*
Pine Ridge Coal            2006-117         05/16/06                         Length of time application pending from most recent notification
Hiriams Hol Refuse Fill                                                      date to 05/27/11 is 1,836 days. Corps said PN needs to be
                                                                             reissued, additional information is needed, and it is waiting for
                                                                             applicant to respond.




     12-P-0083                                                                                                                                   45
    Company name        Application    Notification or    EPA comment
                                                                                                             Notes
     Project name        number       application date     letter date(s)

Clintwood Elkhorn        2006-1296           05/07/07                          Length of time application pending from most recent notification
Clintwood Elkhorn                                                              date to 05/27/11 is 1,480 days. Applicant self-reported violation.
                                                                               Cease and desist letter sent 07/02/08. Sent to EPA for enforcement
                                                                               week of 02/08/10. EPA will not take action due to previous
                                                                               involvement in case with a citizen's lawsuit. Awaiting CWA Section
                                                                               401 and U.S. Fish and Wildlife Service clearances.*
Highland Mining          2006-2196           03/03/11    08/28/09, 09/22/09,   Length of time application pending from most recent notification
Georges Creek Surface                                       and 04/19/11       date to 05/27/11 is 85 days. Documentation of public notice dated
Mine                                                                           07/21/09. Project appears to be in 404(q) process.

Freeport Mining, LLP     2006-2207           10/18/10                          Length of time application pending from most recent application
Freeport Mining, LLP                                                           date to 05/27/11 is 222 days. Corps said application withdrawn
                                                                               02/25/09 and resubmitted as IP 10/18/10. There are Historic
                                                                               Property issues (Section 106) with current application.
Catenary Coal Co.        2006-2278           03/01/07                          Length of time application pending from most recent notification
Moccasin Hollow                                                                date to 05/27/11 is 1,547 days. Applicant resubmitting new
                                                                               Environmental Information Document.
Nally & Hamilton         2006-2522           10/25/10                          Complete application not received. Original application submitted
Nally & Hamilton                                                               03/18/08 incomplete and withdrawn by applicant 05/14/09.
                                                                               Applicant submitted new incomplete application for IP. We also
                                                                               documented NWP 50 notification dated 04/23/10 and EPA
                                                                               comments dated 07/14/10.
Paramount Coal           2006-5999                          11/12/10 and       Length of time application pending from most recent notification
PVVC (per Corps                                               12/07/10         date to 05/27/11 is 239 days. Corps said application for IP
spreadsheet: PCCV)                                                             submitted in 2005 and withdrawn 06/17/08.
Clintwood Elkhorn        2006-716310/01/1005/13/09            06/02/09         Length of time application pending from most recent notification
CEMC                                                                           date to 05/27/11 is 744 days. Corps said application for acreage
                                                                               amendment withdrawn by applicant 03/24/09. We documented an
                                                                               e-mail public notification dated 05/13/09.
Mid Vol                  2006-828                           03/04/10 and       Length of time application pending from most recent notification
Paradise                                                      06/08/10         date to 05/27/11 is 400 days. Documentation of NWP 49
                                                                               notification 12/17/09 that was withdrawn 12/17/09 and resubmitted
                                                                               as IP 03/26/10.
                                  04/22/10



     12-P-0083                                                                                                                                    46
    Company name        Application    Notification or   EPA comment
                                                                                                         Notes
     Project name        number       application date    letter date(s)

Miller Bros. Coal        2007-1131        11/09/07                         Length of time application pending from most recent notification
Miller Bros. Coal                                                          date to 05/27/11 is 1,296 days.*
Miller Bros. Coal        2007-1132        07/20/10                         Length of time application pending from most recent notification
Frasure Branch Mine                                                        date to 05/27/11 is 311 days. Also had notification date 09/26/07.
                                                                           Corps said plans changed to become dual-purpose application.
                                                                           Application withdrawn from ECP 05/14/10, resubmitted by
                                                                           applicant, and is being reviewed under application 2010-519.
Oxford Mining Company    2007-1180        09/29/10          11/24/10       Length of time application pending from most recent notification
LLC                                                                        date to 05/27/11 is 241 days. Corps said applicant withdrew
Ellis Area                                                                 application 06/08/10 and resubmitted 09/10/10. Application
                                                                           withdrawn from ECP.
Laurel Mtn. Resources    2007-1224        10/22/07                         Length of time application pending from most recent notification
Laurel Mtn. Resources                                                      date to 05/27/11 is 1,313 days. List of 237 listed company name
                                                                           and project name as Miller Bros. Coal.*
ICG Knott Co.            2007-1230        11/27/07                         Length of time application pending from most recent notification
ICG Knott Co.                                                              date to 05/27/11 is 1,278 days.*
CAM Mining               2007-1504        08/27/08                         Length of time application pending from most recent application
CAM Mining                                                                 date to 05/27/11 is 1,004 days.*
Jamieson Construction    2007-1641        03/03/10          07/29/10       Length of time application pending from most recent notification
Jamieson Construction                                                      date to 05/27/11 is 450 days. NWP 21 application withdrawn by
                                                                           applicant 04/15/09 and resubmitted as IP.
Nally & Hamilton         2007-1642        03/18/10          04/22/10       Length of time application pending from most recent notification
Nally & Hamilton                                                           date to 05/27/11 is 435 days. Application originally submitted
                                                                           7/29/08 as NWP 21 but was incomplete; withdrawn 11/17/09 and
                                                                           later resubmitted.
Buckeye                   2007-17         01/15/09                         Length of time application pending from most recent notification
Freed Road                                                                 date to 05/27/11 is 864 days. Previous notification 03/03/08 was
                                                                           withdrawn 06/30/08.
Alex Energy, Inc.        2007-182         08/19/08                         Length of time application pending from most recent notification
Federal Surface Mine                                                       date to 05/27/11 is 1,012 days. Delayed due to mitigation plan.
                                                                           Project will be reviewed under ECP.*
Leeco, Inc.              2007-217         04/17/07        10/22/10 and     Length of time application pending from most recent notification
Stacy Branch Surface                                        12/14/10       date to 05/27/11 is 1,501 days. Application being processed
Mine                                                                       through ECP, started 9/16/10 with 60-day clock ending 11/15/10;
                                                                           however, permit still pending.*
     12-P-0083                                                                                                                              47
    Company name         Application     Notification or   EPA comment
                                                                                                            Notes
     Project name         number        application date    letter date(s)

Pioneer Fuel              2007-282              07/08/07                     Length of time application pending from most recent notification
Little Eagle                                                                 date to 05/27/11 is 1,418 days. Corps said it is waiting on additional
                                                                             information from applicant.
Load-Out                  2007-284              05/16/08                     Length of time application pending from most recent notification
Locust Fork                                                                  date to 05/27/11 is 1,106 days.
Alex Energy, Inc.         2007-285              08/12/08      11/30/10       Length of time application pending from most recent notification
Lonestar Surface Mine                                                        date to 05/27/11 is 1,019 days. Project will be reviewed under
                                                                             ECP.*
Pioneer Fuel              2007-286              03/12/08                     Length of time application pending from most recent notification
MT5B                                                                         date to 05/27/11 is 1,171 days. Project will be reviewed under
                                                                             ECP.*
Black Diamond             2007-3433                           08/23/10       Length of time application pending from most recent notification
Norton Coal                                                                  date to 05/27/11 is 323 days. Original NWP application submitted in
                                                                             2008 administratively withdrawn 03/24/09 due to lack of applicant
                                     07/08/10                                response to request for additional information. Data shown are for
                                                                             resubmitted application currently being processed as IP. Currently
                                                                             resolving final mitigation plan and additional baseline data
                                                                             collection. Corps also listed “awaiting CWA Section 401 approval”
                                                                             as a reason for delay.
Nally & Hamilton          2007-439              05/30/08                     Length of time application pending from most recent notification
Nally & Hamilton                                                             date to 05/27/11 is 1,092 days.
Nally & Hamilton          2007-450              08/24/10                     Complete application not received. Original IP application submitted
Nally & Hamilton                                                             on 02/26/07 and withdrawn on 10/14/09 upon discovery of
                                                                             unauthorized work. Current IP application incomplete.
Powdermill Processing     2007-488              05/02/08                     Length of time application pending from most recent notification
Stone1 U/G Mine,                                                             date to 05/27/11 is 1,120 days. Corp said it is waiting on revised
PrepPlant, Refuse Fill                                                       mitigation plan.
Premier Elkhorn Coal      2007-594              09/07/07    09/30/10 and     Length of time application pending from most recent notification
Premier Elkhorn Coal                                          11/02/10       date to 05/27/11 is 1,359 days. Application being processed
                                                                             through ECP, started 08/19/10 with 60-day clock ending 10/18/10.
                                                                             However, deadline extended numerous times. Corps said that it
                                                                             proffered permit 05/27/11.
CAM Mining                 2007-69              02/07/07                     Length of time application pending from most recent notification
Cane Branch                                                                  date to 05/27/11 is 1,572 days. Corps noted additional notification
                                                                             dated 11/27/06.*


     12-P-0083                                                                                                                                    48
    Company name         Application     Notification or   EPA comment
                                                                                                           Notes
     Project name         number        application date    letter date(s)

Surface Mining Inc.       2007-708              10/05/10      06/21/10       Length of time application pending from most recent notification
Young Property                                                               date to 05/27/11 is 235 days. Corps said it awaits information from
                                                                             applicant. We also documented notification for NWP 21 dated
                                                                             01/20/09 and withdrawal letter dated 07/30/09.
CAM Mining                2007-867              08/15/07                     Length of time application pending from most recent notification
CAM Mining                                                                   date to 05/27/11 is 1,381 days.*
Oxford                    2007-874              05/19/09      09/02/10       Length of time application pending from most recent notification
Garrett                                                                      date to 05/27/11 is 738 days. Corps said application pending.
Frasure Creek Mining      2008-1098             01/26/09    04/03/09 and     Length of time application pending from most recent notification
Spring Fork Surface                                           04/28/09       date to 05/27/11 is 853 days. Public notification dated 01/26/09
Mine No. 2                                                                   documented. Corps waiting for additional required information from
                                                                             applicant due to change in mine plan. Project will be reviewed
                                                                             under ECP.*
Nally & Hamilton          2008-1175             09/23/10                     Complete application not received. Application originally submitted
Kayjay #5                                                                    as NWP 21 02/12/09. Application withdrawn and resubmitted as
                                                                             NWP 49 07/16/10. Application withdrawn and resubmitted as IP
                                                                             09/23/10; proposal currently pending.
Nally & Hamilton          2008-1178             08/02/10                     Complete application not received. Application originally submitted
Nally & Hamilton                                                             as NWP 21 03/09/09. Application withdrawn and resubmitted as
                                                                             NWP 49 04/09/10 (we documented public notification for NWP 49
                                                                             dated 05/10/10 as well as EPA comments dated 07/14/10).
                                                                             Application withdrawn and resubmitted as IP.
Nally & Hamilton          2008-1808             09/02/10                     Complete application not received. Application originally submitted
Nally & Hamilton                                                             as NWP 21 07/22/08. Application withdrawn and resubmitted as
                                                                             NWP 49 08/25/09. Application withdrawn and resubmitted as IP
                                                                             09/02/10; proposal pending.
A&G Coal                  2008-2130                           08/22/10       Length of time application pending from most recent notification
A&G Coal                                                                     date to 05/27/11 is 534 days. Application originally submitted as
                                                                             NWP 21 03/13/09. Application withdrawn 10/28/09 and resubmitted
                                     12/10/09                                as IP.
Horizon Resources, LLC    2008-370                          07/31/09 and     Length of time application pending from most recent notification
Synergy Surface Mine                                          08/25/09       date to 05/27/11 is 703 days. List of 237 listed application number
No. 2                                                                        as 2008-1445. We documented 07/06/09 public notification.
                                   06/24/09

     12-P-0083                                                                                                                                49
    Company name           Application    Notification or   EPA comment
                                                                                                            Notes
     Project name           number       application date    letter date(s)

CONSOL of Energy            2008-491         01/03/09          01/20/09	      Length of time application pending from most recent notification
Buffalo Mt. Surface Mine                                                      date to 05/27/11 is 876 days. We also documented public
                                                                              notification dated 12/03/08. Federal Highway Administration
                                                                              completing Environmental Impact Statement. Mine plan changed,
                                                                              and Corps is waiting on additional information. Project will be
                                                                              reviewed under ECP.*
Middle Fork Dev.            2008-525         01/08/09          11/15/10       Length of time application pending from most recent notification
Middle Fork Dev.                                                              date to 05/27/11 is 871 days.*
Eastern Associated          2008-562         11/09/08                         Length of time application pending from most recent notification
Coals                                                                         date to 05/27/11 is 931 days. We documented public notification
Huff Creek Surface Mine                                                       dated 10/10/08 (11/09/08 listed as closing date). This had
                                                                              application number 2008-806; however, Corps said that this was
                                                                              duplicate number so it used 2008-562 for application. Mine plan
                                                                              changed and Corps is waiting for additional information from
                                                                              applicant. Project will be reviewed under ECP.*
Enterprise Mining           2008-654         07/29/08                         Length of time application pending from most recent notification
Enterprise Mining                                                             date to 05/27/11 is 1,032 days.*
Eastern Associated Coal      2008-76         05/04/11                         Length of time application pending from most recent application
Rocklick Branch Refuse                                                        date to 05/27/11 is 23 days. Additional information recently
Fill                                                                          received from applicant.
Pocahontas Coal Co          2008-801         02/14/11                         Length of time application pending from most recent application
East Gulf Complex                                                             date to 05/27/11 is 104 days. NWP 50 application withdrawn to be
                                                                              processed as IP.
Infinity Energy             2008-918         05/29/09                         Applicant self-reported violation 08/14/08. Submitted after-the-fact
Infinity Energy                                                               permit application. Enforcement action pending resolution.
Pocahontas Coal Co          2008-995         05/04/11                         Length of time application pending from most recent application
Beckley Highwall #2                                                           date to 05/27/11 is 23 days. Previous application withdrawn
                                                                              07/16/09. JD requested 07/30/09. Corps indicated NWP 49
                                                                              application complete 05/04/11.
Cambrian Coal               2009-1086        08/12/10                         Length of time application pending from the most recent submission
Cambrian Coal Group                                                           to 05/27/11 is 289 days.
Panther, LLC                2009-154         08/10/09          09/08/09       Length of time application pending from most recent notification
Wet Branch Refuse                                                             date to 05/27/11 is 656 days. Corps said it is waiting for additional
                                                                              information from applicant.


     12-P-0083                                                                                                                                   50
    Company name            Application       Notification or       EPA comment
                                                                                                                        Notes
     Project name            number          application date        letter date(s)

Laurel Mountain               2009-341           07/09/10                                Length of time application pending from most recent notification
Resources                                                                                date to 05/27/11 is 322 days. Also had notification date of 06/09/09
Laurel Mountain                                                                          for NWP 21, but withdrawn 06/11/10 (also had EPA comments
Resources                                                                                dated 02/26/10). Suspension of NWP 21 06/18/10 caused applicant
                                                                                         to apply for IP. List of 237 had company name and project name as
                                                                                         Miller Bros. Coal.
National Coal of AL           2009-443           11/01/10                                Public notice issued 06/02/09. Applicant withdrew application
L. Massey North                                                                          08/03/09 to address Corps comments. Corps said application
                                                                                         resubmitted in November 2010 and is pending.
CAM Mining                    2010-825           09/24/10             11/02/10 and       Length of time application pending from most recent notification
Tom's Branch Surface                                                    11/30/10         date to 05/27/11 is 246 days. There was also a notification date of
Mine                                                                                     05/21/08. List of 237 listed application number as 2007-1301.
                                                                                         Administratively withdrawn 06/28/10 because applicant did not
                                                                                         respond to request for additional information. Application withdrawn
                                                                                         from ECP. Applicant subsequently resubmitted, and application
                                                                                         being reviewed under application number 2010-825.
Lexington Coal Co. LLC        2010-929           03/17/11                                Length of time application pending from most recent notification
Findlay Branch Mine                                                                      date to 05/27/11 is 71 days. We documented additional notification
                                                                                         date of 03/12/08. List of 237 listed company name as Martin County
                                                                                         Coal and application number as 2007-1660. Application withdrawn
                                                                                         by applicant 03/02/10. Application withdrawn from ECP. Lexington
                                                                                         Coal bought the operation and resubmitted application, which is
                                                                                         currently being reviewed under 2010-929.

* On October 6, 2011, the United States District Court for the District of Columbia (National Mining Ass’n (Oct. 6, 2011, Memorandum Opinion and Order)) ruled
that, with the adoption of the ECP, EPA exceeded its statutory authority afforded by the Clean Water Act and ordered the ECP as an unlawful agency action and
set it aside. In light of the District Court’s decision, EPA indicated that pending ECP projects will be evaluated by the Corps and EPA under existing regulatory and
statutory procedures. EPA has 60 days to appeal the District Court’s decisions, which it has not yet done. EPA indicated that it is currently working with the Corps
and the U.S. Department of Justice to make that decision.




     12-P-0083                                                                                                                                             51
Applications With Actions Completed Prior to List Date of May 12, 2009:

                                      Notification or                     Permit-issued
    Company name        Application                     EPA comment
                                       application                            date or                             Notes
     Project name        number                          letter date(s)
                                           date                           withdrawn date

Emerald Coal            1996-61011       01/24/97            Yes             09/17/99      Length of time from notification date to permit-
Resources, LP                                                                              issued date was 966 days.
Emerald Coal
Resources, LP
Premium Coal            2000-2339        03/02/09           None             04/06/09      Length of time from notification date to permit-
Refuse Area #3                                                                             issued date was 34 days. Original IP application
                                                                                           notification 03/12/07. Withdrawn 03/02/09.
                                                                                           Application resubmitted and approved as NWP 21.
                                                                                           (We were unable to obtain new notification date and
                                                                                           used the 03/02/09 withdrawn date to calculate the
                                                                                           review time period.) List of 237 had application
                                                                                           number as 2002-1435.
Valley Mining           2002-1435        02/01/08           None             05/08/09      Length of time from notification date to permit-
                                                                                           issued date was 463 days. Corps said internal
                                                                                           administrative delay.
Central Appalachian     2004-1400        06/13/05          03/23/09          04/28/09      Length of time from notification date to permit-
Mining                                                                                     issued date was 1,414 days. CWA Section 404(c)
Big Branch                                                                                 review initiated 04/28/09. The 04/28/09 letter also
                                                                                           said that EPA shared its concerns in letters dated
                                                                                           07/22/05, 08/16/05, and 12/21/07 (Corps also said
                                                                                           there were letters dated 06/22/05, 10/06/08,
                                                                                           04/28/09, and 12/17/10). Corps said applicant
                                                                                           responded to EPA’s data request dated 12/17/10 on
                                                                                           02/04/11 and 02/11/11.
Clintwood Elkhorn       2004-1860        04/06/09           None             04/27/09      Length of time from notification date to permit-
CEMC                                                                                       issued date was 21 days. Corps said this was
                                                                                           NWP 50.
Oxford Mining Company    2004-396        03/30/09           None             05/04/09      Length of time from notification date to permit-
LLC                                                                                        issued date was 34 days. Corps said delayed due to
Dagrava Area                                                                               SMCRA permit.




12-P-0083                                                                                                                                     52
                                      Notification or                     Permit-issued
    Company name        Application                     EPA comment
                                       application                            date or                             Notes
     Project name        number                          letter date(s)
                                           date                           withdrawn date

Central Appal Mining     2004-867        04/02/08           None             03/10/09      Length of time from notification date to permit-
Remining #3                                                                                issued date was 343 days. Corps said IP application
                                                                                           submitted 01/01/05. We have documentation of
                                                                                           public notice dated 03/15/05 that was withdrawn.

Oxford                  2005-1275        02/06/09           None             03/11/09      Length of time from application date to permit-
Mizer                                                                                      issued date was 35 days.
Sturgeon Mining         2005-1893        06/30/06           None             04/28/09      Length of time from notification date to withdrawn
Sturgeon Mining                                                                            date was 1,032 days.
Consolidated Coal       2005-2160        08/22/07           None             07/09/08      Length of time from notification date to permit-
Company                                                                                    issued date was 321 days. Corps said delayed due
Consolidated Coal                                                                          to Endangered Species Act consultation for Indiana
Company                                                                                    Bat.
Consolidated Coal       2005-2461        10/15/06           None             01/26/09      Length of time from notification date to permit-
Company                                                                                    issued date was 832 days. Corps said delayed due
Wilson Hollow                                                                              to Endangered Species Act consultation for Indiana
                                                                                           Bat.
Sturgeon Mining         2006-1053        02/08/08           None             03/02/09      Length of time from notification date to withdrawn
Sturgeon Mining                                                                            date was 389 days.
Cumberland River Coal   2006-2131        11/10/08           None             03/30/09      Length of time from notification date to permit-
Cumberland River Coal                                                                      issued date was 142 days.
Oxford Mining           2006-2256        01/15/09           None             05/08/09      Length of time from notification date to permit-
Horn                                                                                       issued date was 115 days.
Buckeye Ind Mining       2006-484        08/31/07           None             12/19/08      Length of time from notification date and to permit-
Wilson                                                                                     issued date was 476 days. Corps said delayed due
                                                                                           to SMCRA permit and resolution of comments.
D&C Mining               2006-928        06/23/08           None             04/06/09      Length of time from notification date to permit-
D&C Mining                                                                                 issued date was 287 days. Corps said IP also
                                                                                           submitted 01/07/08 and withdrawn by applicant
                                                                                           06/23/08. Application for NWP 21 resubmitted and
                                                                                           verified.
Kimble Clay Limestone   2007-1101        01/20/09           None             03/11/09      Length of time from notification date to permit-
Harmon Hill                                                                                issued date was 52 days.




     12-P-0083                                                                                                                                53
                                        Notification or                     Permit-issued
    Company name          Application                     EPA comment
                                         application                            date or                              Notes
     Project name          number                          letter date(s)
                                             date                           withdrawn date

A&G Coal Corp             2007-1351        05/17/07        04/03/09 and        08/07/07      Length of time from notification date to permit-
Ison Rock Ridge                                              08/21/09                        issued date was 81 days. EPA e-mailed Corps
                                                                                             04/03/09 asking that NWP 21 be revoked and that
                                                                                             company should apply for IP. Corps told EPA
                                                                                             04/30/09 that it would not revoke NWP 21. Corps
                                                                                             suspended NWP 21 05/06/09 because 2 years had
                                                                                             passed since original verification issued. Corps
                                                                                             advised company to proceed as IP application
                                                                                             08/11/09. A&G Coal's 08/17/09 letter to Corps
                                                                                             requested Corps to reconsider suspension, saying
                                                                                             permit process near completion. Corps told
                                                                                             applicant to apply as IP 07/27/10.

Sapphire Coal             2007-1645        10/21/08           None             03/12/09      Length of time from notification date to permit-
Sapphire Coal                                                                                issued date was 143 days. Corps internal
                                                                                             administrative delay.
ICG Hazard                 2007-334        04/04/07           None             03/25/09      Length of time from notification date to permit-
ICG Hazard                                                                                   issued date was 721 days. Corps internal
                                                                                             administrative delay. In addition, lawsuit filed against
                                                                                             Corps over original decision on application.
Oxford Mining              2007-499        12/19/07           None             02/17/09      Length of time from notification date to permit-
Page S.M.                                                                                    issued date was 424 days.
Licking River Resources    2007-815        11/29/07           None             05/11/09      Length of time from notification date to withdrawn
Licking River Resources                                                                      date was 529 days.
Atlantic Leaseco           2007-961        04/08/08           None             04/06/09      Length of time from notification date to permit-
Peerless #1                                                                                  issued date was 363 days. Corps said this was
                                                                                             NWP 50.
Performance Coal           2008-114        12/03/08           None             04/01/09      Length of time from notification date to permit-
Company                                                                                      issued date was 120 days. Mine reviewed as an
Upper Big Branch Deep                                                                        after-the-fact authorization and Corps said it issued
Mine                                                                                         NWP 50 04/01/09.
Chas Coal                  2008-138        03/31/08           None             05/09/09      Length of time from notification date to withdrawn
Chas Coal                                                                                    date was 405 days.




     12-P-0083                                                                                                                                  54
                                    Notification or                     Permit-issued
    Company name      Application                     EPA comment
                                     application                            date or                            Notes
     Project name      number                          letter date(s)
                                         date                           withdrawn date

GTM Energy Partners    2008-572        03/13/09           None             04/17/09      Length of time from application date to permit-
GTM Energy Partners                                                                      issued date was 34 days. NWP 14—Linear
                                                                                         Transportation Projects issued for road crossings
                                                                                         only.
Patrick Processing     2008-651        06/05/08           None             05/07/09      Administratively withdrawn; applicant never
Patrick Processing                                                                       submitted complete application. NWP 50.
National Coal of AL    2009-416        03/18/09           None             04/27/09      Length of time from application date to permit-
L. Massey South                                                                          issued date was 40 days. Coordination not required;
                                                                                         impacts to waters less than 0.5 acres.




     12-P-0083                                                                                                                           55
 Nonsurface Mining Applications:

                                                                        Permit issued
                                    Notification or
  Company name        Application                     EPA comment          date or
                                     application                                                                    Notes
   Project name        number                          letter date(s)    withdrawn
                                         date
                                                                            date

 Jurisdictional Determination
B&N Coal                2008-106         N/A                                            According to Corps, only JD applied for. Applicant never
Whigville                                                                               applied for permit.
Frasure Creek          2008-388                                                         JD only for this project.
Mining
Frasure Creek
Mining
 NWP 14
Buckeye                2006-483        10/27/09           None            11/12/09      Length of time from application date to permit-issued date
Hamilton                                                                                was 15 days. According to Corps, this was NWP 14—Linear
                                                                                        Transportation Projects issued for road crossings only.
                                                                                        Corps says application completed 10/27/09 and verified
                                                                                        11/12/09. We documented public notification for NWP 21
                                                                                        dated 05/27/08.
 NWP 32
Apex Energy           2003-1415        11/25/03           None            04/02/10      Length of time from application date to permit-issued date
Apex Energy                                                                             was 2,319 days. Unauthorized activity cease and desist
                                                                                        order issued by Corps 02/26/04. Referred to EPA for
                                                                                        enforcement 04/13/04. Copy of consent decree received
                                                                                        02/02/09. Applicant paid $115,000. List of 237 had
                                                                                        application number as 2002-1435.
 NWP 50
Bluestone Coal         2003-794        04/08/08           None            05/29/09      Length of time from notification date to permit-issued date
Deep Mine 65                                                                            was 417 days.
Ohio Valley Coal       2003-853        07/09/09           None            10/07/09      Length of time from application date to permit-issued date
No. 2 Slurry Exp.                                                                       was 89 days.
Bluestone Coal         2003-995        02/13/08           None                          Length of time application pending from most recent
Pocahontas #11                                                                          application date to 05/27/11 is 1,200 days. Corps said
                                                                                        permit pending, waiting on additional information from
                                                                                        applicant. EPA had public notification date as 03/31/08.


12-P-0083
                                                                                                                                                      56
                                                                       Permit issued
                                   Notification or
  Company name       Application                     EPA comment          date or
                                    application                                                                    Notes
   Project name       number                          letter date(s)    withdrawn
                                        date
                                                                           date

National Coal         2005-854        10/27/09           None            03/17/10      Length of time from notification date to permit-issued date
National Coal                                                                          was 142 days. Application originally submitted as IP but due
                                                                                       to plan changes was resubmitted and processed as
                                                                                       NWP 50.
Laurel Cr Coal       2006-2405        04/09/07           None            08/20/10      Length of time from notification date to withdrawn date was
#7                                                                                     1,228 days. Administratively withdrawn due to lack of
                                                                                       applicant response.
Appalachian Fuels    2007-1161        01/20/09           None            05/07/10      Length of time from application date to withdrawn date was
Big Creek                                                                              473 days. Company bankrupt and ceased business
                                                                                       operations. Corps says administratively withdrawn due to
                                                                                       lack of company response.
Eastern Associated    2007-347        08/04/08           None            05/15/09      Length of time from notification date to permit-issued date
Coal                                                                                   was 285 days.
Pond Fork #2 Gas
Deep Mine
CAM Mining           2008-1361        12/10/08           None            10/21/09      Length of time from notification date to permit-issued date
CAM Mining                                                                             was 315 days. Corps internal administrative delay.
Newagle Mining        2008-321        04/21/09           None                          Length of time application pending from most recent
Corporation                                                                            notification date to 05/27/11 is 767 days. Corps waiting for
Hoover Fork Deep                                                                       additional information.
Mine
Hampden Coal          2008-935        03/30/09           None            05/21/10      Length of time from notification date to withdrawn date was
Harrys Br                                                                              417 days. Corps administratively withdrew due to lack of
                                                                                       applicant response to request for additional information.
Kanawha Eagle         2009-15         04/26/10           None            04/21/11      Length of time from notification date to permit-issued date
Coalburg5 & Eagle2                                                                     was 360 days.
Hillside Mining       2009-189        09/10/09           None            08/09/10      Length of time from notification date to permit-issued date
Workman Br                                                                             was 334 days.
Chevron Mining        2009-232        04/15/09           None            05/29/09      Length of time from application date to permit-issued date
North River R-34                                                                       was 45 days. Coordination not required; impacts to waters
                                                                                       less than 0.5 acres.




     12-P-0083                                                                                                                                   57
                                                                             Permit issued
                                        Notification or
  Company name          Application                       EPA comment           date or
                                         application                                                                       Notes
   Project name          number                            letter date(s)     withdrawn
                                             date
                                                                                 date

McElroy Coal             2009-286          02/18/09             Yes             08/17/09       Length of time from notification date to permit-issued date
Company                                                                                        was 181 days.
5 North # 11Bleeder
Shaft
Consolidated Coal        2009-293          05/15/09            None             07/13/09       Length of time from notification date to permit-issued date
Company                                                                                        was 59 days.
Loverridge Mine #22
Leeco, Inc.              2009-344          09/23/09           03/17/10                         Length of time application pending from most recent
Leeco, Inc.                                                                                    notification date to 05/27/11 is 612 days. Corps internal
                                                                                               administrative delay.
Argus Energy WV,         2009-427          02/06/09            None             05/13/10       Length of time from notification date to permit-issued date
LLC                                                                                            was 463 days.
Devilstrace No. 2
Punchout
ICG Knott Co.             2009-75          02/16/10           03/25/10          05/12/10       Length of time from notification date to permit-issued date
Lige Hollow                                                                                    was 87 days. Corps internal administrative delay.
Amburgy Mine
 Other
National Coal of AL      2009-318                                                              No permit required.
Kansas Mine No. 2


Source: On May 27, 2011, the Corps provided the senator’s office permit application data, including status and reasons for delay, on the 237 applications under
our review. The senator’s office forwarded this information to us. We also visited EPA Regions 3, 4, and 5 to examine source documents and interview staff. This
appendix presents our analysis of all data and information we obtained.




     12-P-0083                                                                                                                                             58
                                                                              Appendix B

                                    Distribution
Office of the Administrator 

Assistant Administrator for Water 

Agency Follow-Up Official (the CFO) 

Regional Administrator, Region 3 

Regional Administrator, Region 4 

Regional Administrator, Region 5 

Agency Follow-Up Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Audit Follow-Up Coordinator, Office of Water 

Audit Follow-Up Coordinator, Region 3 

Audit Follow-Up Coordinator, Region 4 

Audit Follow-Up Coordinator, Region 5 





12-P-0083                                                                             59
